APPENDIX
Volume II

TABLE OF CONTENTS
Volume I
Appendix A:

Court of Appeals of the State
of New York decision, dated
November 23, 2020. ......... 1a-82a
Majority opinion ............ [1a-22a]
Judge Rivera’s dissent . [23a-53a]
Judge Wilson’s dissent [54a-81a]

Appendix B:

Supreme Court of the State
of New York, Appellate Division,
Second Department opinion,
dated May 6, 2020. .......... 83a-86a

Appendix C:

Trial court ruling. ........... 87a-92a

Appendix D:

Court of Appeals denial of
reargument, dated April 1, 2021
(excerpted). ...................... 93a-94a

Appendix E:

Statutory provisions involved.
......................................... 95a-98a

Volume II
Appendix F:

Additional materials. .... 99a-177a
People ex rel. Bonilla v. Superintendent, No. 2020/51174 (Sup.
Ct. Dutchess Co. June 25, 2020)
(oral ruling) ................ [99a-107a]
Original writ filings (excerpted)
.................................. [108a-177a]

99a
APPENDIX F
101
1
2
3
4

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF DUTCHESS : CIVIL TERM
- - - - - - - - - - - - - - - - - - - - X
The People of the State of New York,
ex rel. Luis Bonilla, DIN# 16A2855,
NYSID# 08547635Y,
Petitioner,

5

-against-

6
7
8
9
10

Superintendent, Fishkill Correctional
Facility; New York State Department of
Corrections and Community Supervision,
Respondents.

Dutchess County Courthouse
10 Market Street
Poughkeepsie, New York 12601
June 25, 2020

12

14
15
16
17
18
19
20
21
22
23
24
25

INDEX NO.
2020/51174

- - - - - - - - - - - - - - - - - - - - X

11

13

WRIT OF
HABEAS CORPUS

BEFORE:

HONORABLE CHRISTIE J. ACKER
Justice of the Supreme Court

APPEARANCES:
THE LEGAL AID SOCIETY
CRIMINAL APPEALS BUREAU
Attorneys for Petitioner
199 Water Street
New York, New York 10038
BY: PAULINE SYRNIK, ESQ.
and
ANDREA YACKA-BIBLE, ESQ.
LETITIA JAMES
ATTORNEY GENERAL OF THE STATE OF NEW YORK
Attorneys for Respondents
One Civic Center Plaza, Suite 401
Poughkeepsie, New York 12601
BY: HEATHER RUBINSTEIN, ESQ.
Jennifer DeCelestino
Senior Court Reporter

100a
121

- PROCEEDINGS -

1

Again, your Honor, this case is solely about

2

one individual, Mr. Bonilla.

3

need to decide anything regarding the faith of the

4

agreement between DHS and DOCCS.

5

not before the Court today.

6

order DOCCS to release Mr. Bonilla to an intake

7

office where DHS has confirmed a SARA compliant bed

8

would be given to him.

9
10

Your Honor does not

That question is

We ask your Honor to

Thank you so much.
THE COURT:

Okay.

Thank you, everybody.

11

It's 2:37, 2:36.

I'm going to take about 15 minutes,

12

and my hope is to be able to issue a decision on the

13

record at about 2:50 to 2:55.

14

Okay.

15

(Whereupon, a recess was taken.)

16

THE COURT:

17
18

Thank you.

This shall constitute the

decision and order of this Court.
Petitioner Luis Bonilla commenced this habeas

19

corpus proceeding seeking to be immediately released

20

from Fishkill Correctional Facility, where he is

21

currently being housed in what has been designated a

22

residential treatment facility or "RTF".

23

2016, Petitioner was convicted and sentenced to a

24

four-year determinant term as well as five years of

25

post-release supervision.

In April of

Because Petitioner had

101a
122

- PROCEEDINGS -

1

been designated a Level 2 sex offender and his crime

2

was committed against a minor, he is subject to the

3

residency requirements of Executive Law 259-c(14),

4

otherwise known as the Sexual Assault Reform Act or

5

SARA.

6

must reside at an address that is more than 1,000

7

feet from school grounds.
The writ alleges that because Petitioner is

8
9

As a result of this, upon release, Petitioner

indigent and cannot afford SARA compliant housing, he

10

is completely reliant upon the New York City shelter

11

system.

12

to a New York City shelter operated by the Department

13

of Homelessness Services, also known as DHS in this

14

decision, when he reached his maximum expiration

15

date, Respondent DOCCS transferred Petitioner to

16

Fishkill's RTF.

17

reached the maximum expiration date for his

18

determinate sentence on August 10th, 2019, over 10

19

months ago, and he remains at Fishkill RTF.

20

He maintains that instead of releasing him

It is uncontested that Petitioner

By decision dated June 9th, 2020, I scheduled

21

a hearing to determine whether Petitioner can be

22

immediately released to a New York City DHS shelter.

23

The hearing commenced on June 24th, 2020 and

24

continued to today, June 25th, 2020.

25

presented two witnesses, Yvonne Tinsley-Ballard and

Petitioner

102a
123

- PROCEEDINGS -

1

Deborah Diamant.
Ms. Tinsley-Ballard is an associate

2
3

commissioner for New York City DHS and she oversees

4

shelter operations.

5

Callahan Consent Decree which she described as

6

mandating DHS to provide shelter to anyone who

7

requests it.

8

predates SARA, she testified that the decree requires

9

DHS to find shelter for SARA restricted individuals

She testified about the 1981

Although the Callahan Consent Decree

10

as well.

11

if a person who required SARA compliant housing

12

presented to a DHS shelter, DHS cannot deny them and

13

must find them a SARA compliant bed.

14

clearly stated that DHS will find SARA compliant beds

15

for these individuals even if there were no

16

vacancies.

17

is an agreement between DHS and DOCCS, where DHS

18

reserves 10 SARA compliant beds per month for inmates

19

being released by DOCCS.

20

In fact, Ms. Tinsley-Ballard testified that

Notably, she

Her testimony also established that there

Petitioner also called Deborah Diamant, who

21

is a Director of Government Relations and Legal

22

Affairs for the Coalition of the Homeless.

23

coalition is a not for profit that is, as relevant

24

herein, the Court appointed monitor of single adult

25

homeless shelters in New York City based upon the

The

103a
124

- PROCEEDINGS -

1

Callahan Consent Decree.

2

cumulative of Ms. Tinsley-Ballard's, and she also

3

confirmed that the Callahan Consent Decree mandates

4

that DHS find SARA compliant housing for those who

5

present at the shelter seeking such housing.

6

further testified as to the vacancies and available

7

beds indicating that only one period in the last two

8

weeks where there were no vacant beds.

9

Her testimony was largely

She had

Respondent called one witness, Stacey Dorsey,

10

the Reentry Manager for DOCCS for Manhattan and

11

Staten Island as well as the DOCCS/DHS liaison.

12

Among other duties, Mr. Dorsey is responsible for

13

placing every DOCCS releasee with SARA restrictions

14

who seeks housing with DHS.

15

the agreement between DOCCS and DHS where 10 SARA

16

restricted persons are chosen by DOCCS per month and

17

sent to DHS.

18

individuals are chosen from the RTF and held past

19

lists maintained by DOCCS.

20

list who have been held the longest past their

21

maximum expiration date or CR, which I believe is

22

conditional release date, are the ones chosen each

23

month to be brought to DHS, and to be clear, I know

24

that the CR date is for the held past list, the

25

maximum expiration is for the RTF list.

She also testified about

According to Ms. Dorsey, these

Those individuals on said

There was no

104a
125

- PROCEEDINGS -

1

evidence presented whether the agreements between DHS

2

and DOCCS is a written one, when such agreement

3

began, or whether the terms of the agreement have

4

changed since its inception.

5

that DOCCS is prohibited from bringing more than 10

6

individuals per month to DHS.

7

There was no testimony

After hearing the testimony, the Court finds

8

that all witnesses were credible, mutual and very

9

competent.

I have no doubt that DOCCS and DHS are

10

doing their best to comply with the law.

However, I

11

also note that I am only deciding this writ by

12

Mr. Bonilla.

13

were, my decision may well be different.

14

am determining that DHS is not a necessary party as I

15

am not ordering DHS to do anything.

16

established that if he was brought to DHS, DHS will

17

find him SARA compliant housing.

18

not provided this Court with any evidence to the

19

contrary, nor have they established that DHS shelter

20

housing would be noncompliant with Petitioner's

21

post-release restrictions.

22

are focused more on the convenience of DOCCS and DHS

23

and their concern about Petitioner leap-frogging

24

ahead of others, which is irrelevant in this habeas

25

corpus proceeding for Mr. Bonilla.

This is not a class action, and if it
Further, I

Petitioner has

Respondents have

Respondents' arguments

As Respondent

105a
126

- PROCEEDINGS -

1

routinely brings SARA restricted releasees to DHS, it

2

is obvious that DHS maintains SARA housing which has

3

been found acceptable by Respondent.

4

concern that Petitioner may not provide correct

5

information regarding his SARA status at intake to

6

DHS, Respondent can process Petitioner and

7

communicate with DHS in the same manner as it does

8

with the 10 releasees that are brought to DHS each

9

month.

As for any

In sum, all of the concerns raised by

10

Respondents are either irrelevant to this particular

11

writ or the Court can address those concerns by way

12

of this order.

13

intended to track the procedures already in place for

14

releasees from DOCCS to DHS.

Indeed, the terms of this order are

Accordingly, Petitioner has established that

15
16

SARA compliant housing is available to him.

17

Petitioner has demonstrated by a preponderance of the

18

evidence that he is entitled to immediate release to

19

a DHS shelter and his Petition is granted to this

20

extent.

21

accordance with the agreement that they have in place

22

with DHS so that the Petitioner may be discharged on

23

or before July 1st, 2020.

24

Petitioner, transport him and provide DHS with all

25

information about Petitioner as it would normally

Respondent shall process Petitioner in

Respondent shall discharge

106a
127

- PROCEEDINGS -

1

proceed pursuant to its agreement.

2

submit an order on notice in conformity with this

3

decision.
As I indicated, this shall constitute the

4
5

Petitioner must

decision and order of this Court.

6

Before we close, is there anything further?

7

MS. SYRNIK:

Your Honor, I would just like to

8

note if it would be possible to e-mail us an

9

e-certified copy of the decision to us and to

10

Respondents and to DOCCS so that they are able to as

11

quickly as possible process the paperwork for his

12

release?

13

THE COURT:

You can -- the intention is that

14

this Court's decision was done on the record.

15

when you submit the order, you can state for the

16

decision stated on the record, and you can order a

17

copy of the transcript from the Court Reporter.

18

MS. SYRNIK:

19

THE COURT:

20

Thank you so much, your Honor.
Okay.

Is there anything else

before we close?

21

You're muted, Heather.

22

MS. RUBINSTEIN:

23

Respondents, your Honor.

24
25

So,

THE COURT:
very much.

Thank you for the
Thank you.

I want to thank the attorneys

I appreciate that it is not easy to do

107a
128

- PROCEEDINGS -

1

this kind of hearing remotely.

I want to express my

2

deep gratitude to Jennifer, the Court Reporter, and

3

thank you for making my job easy in terms of

4

proceeding on this hearing.
So, I hope everybody has a nice weekend.

5

I

6

would like you to submit an order on notice to

7

Mr. Rubinstein, and you can upload it, and if there

8

are any comments, of course, Mr. Rubinstein, please

9

let us know right away regarding any objections to

10

the proposed order.
I can so order the transcript, and whoever

11
12

pays for it, you can work that out, or whoever is

13

ordering it is paying for it.

14

MS. SYRNIK:
*

15
16

Dated:

Okay?

Thank you, your Honor.
*

*

___________

17
18

So Ordered:

19

_____________________
Hon. Christi J. Acker
Justice Supreme Court

20
21
22
23

This is to certify that the foregoing is
an accurate transcription of my stenographic
notes as transcribed by me.

24
25

____________________________
JENNIFER DECELESTINO

108a

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF QUEENS

20RIBINAL

The People of the State of New York ex. reL
ANGEL ORTIZ,
DIN # 08-A-4974 & NYSID # 05394060J,
Petitioner,

WRIT OF
HABEAS CORPUS
e
Index No. i t 3 -.1-1DI C.)

- against DENNIS BRESLIN, Superintendent of Queensboro
Correctional Facility, and NEW YORK STATE
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION,
Respondents.

TO: SUPERINTENDENT BRESLIN, Queensboro Correctional Facility
YOU ARE HEREBY commanded to produce the body of Angel Ortiz, who
is by you imprisoned and detained, together with the time and cause of such
imprisonment, before a Justice of the Supreme Court, Queens County, at the
Courthouse thereof, at 9:30 a.m. on the at day of 314,-7, 2018, for the Court to
inquire into and determine the legality of Mr. Ortiz's confirmed detention.
WITNESS, Hon. Semi & Leirewl, one of the Justices of said Court on
the 2-5- day of Cs-m-te, 2018.
SEYMOUR W. JAy
S, JR.
Will A. Page, Of Counsel
The Legal Aid Society, Criminal Appeals Bureau
199 Water Street, New York, New York 10038
The within writ is hereby allowed this 2.-5- day of

SUPREME

A019

2018.

•URT JUSTICE
JOHN B. LATELLA

109a
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF QUEENS
The People of the State of New York ex. rel.
ANGEL ORTIZ,
DIN 08-A-4974 & NYSID # 05394060J,
Petitioner,
- against DENNIS BRESLIN, Superintendent of Queensboro
Correctional Facility, and NEW YORK STATE
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION,

PETITION FOR A
WRIT OF
HABEAS CORPUS
S.P.
113-2018
------Index No. _________

Respondents.
STATE OF NEW YORK
COUNTY OF NEW YORK

ss.:

WILL A. PAGE, Esq., of counsel to SEYMOUR W. JAMES, JR., Esq. and
The Legal Aid Society, Criminal Appeals Bureau, 199 Water Street, New York,
New York 10038, represents petitioner, Mr. Angel Ortiz, in this petition for a writ
of habeas corpus pursuant to Article 70 of the C.P.L.R. This petition is submitted
on Mr. Ortiz’s behalf, see C.P.L.R. § 7002(a), because he is illegally imprisoned
and restrained in his liberty in the county where this petition has been filed, and
any further delay will cause him additional material injury.
As his attorney and pursuant to C.P.L.R. §§ 2106 & 7002(c), I set forth the
following pertinent factual allegations, which are within my knowledge or are
based upon information and belief, along with the enclosed affirmation in support
of the writ:
1
A020

110a
1.

In June 2008, petitioner pleaded guilty to one count of robbery in the first
degree, P.L. § 160.15(3), and one count of attempted sexual abuse in the first
degree, P.L. §§ 110.00 and 130.65(1).

2.

He was sentenced to a determinate term of imprisonment of 10 years
followed by 5 years of post-release supervision (“PRS”). No one ever
informed Mr. Ortiz that the State would attempt to treat his 10- and 5-year
distinct terms as one bulk term of imprisonment.

3.

Petitioner was subsequently adjudicated a Level III under the Sex Offender
Registration Act (“SORA”) registration scheme with respect to that offense.

4.

This petition seeks Mr. Ortiz’s immediate release given respondents’
ongoing failure to release him following the “maximum expiration” date
(“ME date”) of his sentence of incarceration, which was March 4, 2018.

5.

Petitioner is currently incarcerated at the Queensboro Correctional Facility
(“Queensboro” or “the facility”) by respondent Superintendent BRESLIN.

6.

The facility is located at 47-04 Van Dam Street, Long Island City, NY
11101-3081, which is in Queens County.

7.

Respondents are illegally detaining Mr. Ortiz—and have done so since his
“conditional release” date (“CR date”) of September 28, 2016—because, in
their view, they are entitled to hold him indefinitely, or at least until his term
of PRS expires.

8.

Indeed, respondents first illegally detained him in prison between his earned
CR date and his ME date, and now continue that detention at an alleged
Residential Treatment Facility (“RTF”) in prison-like conditions during
what should be his term of PRS. And, by ignoring his CR date and failing to
credit that time, they have unilaterally extended his PRS from 2021 to 2023.
2
A021

111a
9.

Respondents justify this ongoing detention by claiming that petitioner’s
Level III designation, combined with his period of PRS, subject him to the
residency restrictions of the Sexual Assault Reform Act (“SARA”). Thus,
because Mr. Ortiz does not have SARA-compliant housing available to him,
respondents will not release him.

10.

Mr. Ortiz recognizes that, pursuant to the Correction Law § 73(10),
respondents could use an RTF as a “residence” for him, now that he has
served his term of incarceration. But respondents are using Queensboro,
designated by DOCCS as an RTF, as another prison, not as a residence.

11.

At Queensboro, Mr. Ortiz is not free to come and go, to begin his
reintegration into the community, to begin rebuilding his life, or to interact
with his family. He has received no treatment during his illegal detention;
he has no access to programs; and, he is prohibited from seeing his daughter.

12.

Petitioner, therefore, remains unlawfully confined at the facility because
respondents will not release him into the community for his period of postrelease community supervision.

13.

No previous writs have been filed seeking the relief requested herein, and no
federal court or judge has exclusive jurisdiction over this controversy.

14.

A notice of appeal has been filed with regard to the SORA adjudication that
resulted in Mr. Ortiz’s Level III designation, but that appeal has not been
perfected at this time.

15.

Petitioner’s ongoing illegal detention is unjustifiable, given that respondents
have ignored two mandated release dates: first, Mr. Ortiz’s CR date of
September 28, 2016; and second, his ME date of March 4, 2018.

16.

In total, his liberty has been unconstitutionally restricted for over 19 months.
3
A022

112a
Grounds for Petition
17.

Petitioner seeks a writ of habeas corpus on the grounds that:
a. applying SARA’s housing restrictions to keep him in custody beyond
his ME date, in a purported RTF under conditions amounting to
imprisonment, violates due process by infringing on his fundamental
liberty rights, U.S. Const. amend. XIV; N.Y. Const. art. I, § 6;
b. his continued confinement past his maximum prison sentence
constitutes cruel and unusual punishment, U.S. Const. amend. VIII;
N.Y. Const. art. I, § 5; and
c. the statutory language makes clear that SARA does not apply to
persons serving post-release supervision after completing their
maximum prison term, only to persons on early release via parole or
conditional discharge, and, even if it did, the RTF where he is
confined does not satisfy the statutory requirements for an RTF.
Relief Requested
WHEREFORE, for the reasons stated above, provided in the attached

Affirmation in Support, and argued in the attached Memorandum of Law, it is
respectfully requested that this Court (a) consider the issue of petitioner’s illegal
detention as quickly as practicable to avoid Mr. Ortiz incurring any additional
harm, (b) issue a writ of habeas corpus, directed to the respondents, for the purpose
of inquiring into the legality of petitioner’s continued detention and, ultimately,
directing his release from the custody of the respondent Superintendent BRESLIN,
and (c) grant petitioner such other and further relief which may be just and proper.

4
A023

113a

Dated:

New York, New York
June H , 2018
ILL A. PAGE
The Legal Aid Society
Of Counsel

A024

114a
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF QUEENS
The People of the State of New York ex. rel.
ANGEL ORTIZ,
DIN 08-A-4974 & NYSID # 05394060J,
Petitioner,
- against DENNIS BRESLIN, Superintendent of Queensboro
Correctional Facility, and NEW YORK STATE
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION,

AFFIRMATION
IN SUPPORT OF A
WRIT OF
HABEAS CORPUS
S.P.
113-2018
-------Index No. _________

Respondents.
STATE OF NEW YORK
COUNTY OF NEW YORK

ss.:

WILL A. PAGE, Esq., an attorney duly admitted to the practice of law in this State
and not a party to the instant action, does hereby subscribe and affirm under
penalty of perjury the following to be true pursuant to C.P.L.R. § 2106:
1.

I am of counsel to SEYMOUR W. JAMES, JR., Esq., The Legal Aid
Society, Criminal Appeals Bureau, the attorney of record herein.

2.

I have read the foregoing petition and the following affirmation and know
their contents. The contents of the petition and affirmation are true to my
knowledge, except as to matters alleged to be upon information and belief,
and as to those matters, I believe them to be true.

1
A025

115a
3.

The sources of information upon which I have based those beliefs are
conversations had with petitioner, documents prepared by the New York
State Department of Corrections and Community Supervision, and other
attached documents.

4.

Included with this affirmation are what I believe to be true and correct
copies of the following exhibits:
Exhibit A: CRIMS Report & Parole Documentation
Exhibit B: Minutes from SORA Proceeding
Exhibit C: Photos of “H.” & Proof of Custody
Exhibit D: Inmate Locator Report
Exhibit E:

DOCCS Directive (Queensboro Facility)

Exhibit F:

Areas Off-limits Due to SARA

Exhibit G: Matter of Luis Rodriguez v. Tina Stanford, N.Y. Bd. of
Parole, No. 2017/0773 (Sup. Ct. Jefferson Co. July 27,
2017) (Respondent’s Affirmation)
Exhibit H: People ex rel. Scarberry, No. 3963/2014 (Sup. Ct.
Dutchess Co. Nov. 21, 2014) (Decision/Order)
Exhibit I:
5.

People ex rel. Joe, No. 7985/2014 (Sup. Ct. Columbia
Co. Oct. 30, 2014) (Decision/Order)

I make this writ and accompanying submissions on petitioner’s behalf
because he is incarcerated outside the county in which my office is located.

6.

To the extent the Court seeks additional evidence on the allegations made
herein, petitioner requests to be present at a hearing where such evidence
and testimony can be introduced.

2
A026

116a
Background & Relevant History
7.

Petitioner is almost 50 years old. He grew up in Manhattan, with his mother,
and has lived in New York City for most of his life. He has an 11-year-old
daughter, referred to herein as “H.”

8.

Mr. Ortiz and his mother share custody over and are jointly responsible for
H., who was born shortly before petitioner began serving his prison sentence
for the underlying offense. (See Exh. C [Photos of H. & Proof of Custody].)

9.

During his ten years of incarceration, Mr. Ortiz has been able to develop and
to maintain a meaningful relationship with H., through letters, phone calls,
and prison visits. It is his sincere wish to return to the community so that he
may provide for his daughter and support her in every way possible as she
enters adolescence.

10.

In 1994, when Mr. Ortiz was in his mid-20s, he was convicted of attempted
sodomy in the first degree. For that offense, he was designated a Risk Level
II under SORA upon his release from prison in 2001.

11.

During his re-entry, Mr. Ortiz did his best to apply himself. He ultimately
achieved full-time employment, both in the culinary and commercial
transport fields, and entered into an adult relationship.

12.

But, in 2008, Mr. Ortiz relapsed into addiction. He was accused of sexually
threating a pizza delivery man during the course of a robbery designed to
secure money in order to obtain drugs. On June 12, 2008, he pleaded guilty
to one count of robbery in the first degree, P.L. § 160.15(3), and one count
of attempted sexual abuse in the first degree, P.L. §§ 110.00 and 130.65(1).

13.

H e was sentenced to a determinate term of imprisonment of 10 years
followed by 5 years of post-release supervision.
3
A027

117a
14.

On March 4, 2018, he completed serving the determinate 10-year prison
term. (See Exh. A [CRIMS Report & Parole Documentation].)

Prison Record for Current Term of Incarceration
15.

Petitioner’s record while incarcerated demonstrates his commitment to
rehabilitation. Not only did he complete an aggression replacement training,
but he took part in alcohol and substance abuse treatment. While petitioner
has struggled with substance abuse in the past, he has remained sober since
the underlying offense in this case, which took place in 2008.

16.

Moreover, and particularly relevant to the circumstances of his continued
confinement, he successfully completed sex offender treatment in September
2015. Through treatment, he learned about his “power and control issues”
and how to prevent reoffending behavior. (See Exh. B, at 17-21 [Minutes
from SORA Proceeding].)

17.

Petitioner also has a very good disciplinary record. During his 10 years in
prison, he received just two tickets, both for minor, Tier II infractions. (See
Exh. B, at 13 [Inmate Disciplinary History].)

18.

Based on his strong record in prison, he earned good time credit and was
entitled to early, conditional release in September 2016. (See Exh. A [Parole
Documentation (Time Allowance Review)].)

SORA Hearing for Current Offense
19.

At a SORA hearing on October 11, 2016 (which took place after Mr. Ortiz’s
conditional release date of September 28), petitioner was adjudicated a Risk
Level III, or a high risk for re-offense.
4
A028

118a
20.

That determination was made in spite of Mr. Ortiz’s acceptance of
responsibility for his actions, strong record of rehabilitation, and the other
factors cited by his counsel at the hearing. Specifically, counsel warned that
adjudicating Mr. Ortiz a Level III would result in his incarceration being
extended—i.e., a further punishment, contrary to the accepted rationale that
SORA is regulatory, not punitive. (See Exh. B, at 15-17 [minutes].)

21.

As predicted by counsel, Mr. Ortiz was detained well-beyond his conditional
release date and remains incarcerated today.

Custody Conditions
22.

Petitioner reached his ME date on March 4, 2018, but even after fully
serving his entire prison term, he was not released into the community.
Fishkill RTF

23.

Instead, on February 23, 2018, two weeks shy of his ME date, he was
transferred to Fishkill Correctional Facility (“Fishkill”), designated by
DOCCS as an RTF.

24.

Not only has petitioner’s transfer into the RTF system resulted in extending
his period of incarceration, but it has also isolated him from his family.

25.

His daughter, who visited him before his move to Fishkill, was informed by
DOCCS that she cannot visit him so long as he is confined in an RTF,
because minors are not allowed inside RTFs.

26.

Further, his living conditions at Fishkill were no different than the prison in
which he was incarcerated prior to his transfer.

5
A029

119a
27.

When he arrived at Fishkill, he was given an orientation about the RTF
program, but was not placed in the RTF Unit.

28.

Upon information and belief, actual RTF programs are overcrowded and
underfunded. And, the RTF Unit at Fishkill is no exception.

29.

Because the RTF was full, Mr. Ortiz was placed on the waiting list.

30.

The special housing unit for the RTF at Fishkill is Unit 12-1, but petitioner
was housed in Unit 2. That unit is a general population unit for inmates who
are serving regular prison terms.

31.

There, everyone has a cubicle with a bed. There is a day room with a
television, and petitioner had access to a library. But there was no treatment
or job training provided.

32.

In fact, it was not until seven weeks after his transfer that he was enrolled in
RTF required therapeutic programming.

But his enrollment in the

programming was short lived (only four days).
Queensboro RTF
33.

On April 20, 2018, petitioner was sent to Queensboro, where he remains to
this day. (See Exh. D [Inmate Locator].)

34.

The conditions at Queensboro are no better than at Fishkill.

35.

At Queensboro, Mr. Ortiz is assigned to Unit 5-North, which houses the
general population of the prison. Within the unit, there is an area next to the
“police bubble” (a centralized observation area from which correction
officers keep an eye on inmates and their activities) where Mr. Ortiz and
about 20 others in the RTF program are housed together.

6
A030

120a
36.

This area is not separated from the rest of Unit 5-North in any way. Rather,
it is a part of the larger dormitory-style unit.

37.

There, Mr. Ortiz and the others sleep on bunks beds identical to those in the
rest of the unit. They also have one gray locker each, just like the rest of the
general prison population.

38.

He and his fellow detainees are referred to as “inmates” by the corrections
officers at the facility.

39.

Mr. Ortiz has his meals in the mess hall with the general prison population.
He uses the same bathrooms, showers, and recreation room as the rest of the
prison population. He is subject to the same inmate count and random
searches as the inmates in the general prison population.

40.

Indeed, Mr. Ortiz has the same privileges, including phone, mail, and
packages, as the regularly incarcerated inmates in the general population.

41.

Unlike the general population inmates, however, Mr. Ortiz and others
warehoused in the RTF program may be selected to leave the Queensboro
Facility for several hours to work. Queensboro is, in fact, styled as a workrelease facility. (See Exh. E [Queensboro Directive].)

42.

Mr. Ortiz, however, has only been chosen for that work a handful of times.

43.

When he or other inmates leave Queensboro on “work release,” the
participants spend the day unloading trucks for a nearby police facility.
They are accompanied, at all times, by armed corrections officers.

44.

Otherwise, he and the other RTF inmates spend their days cleaning the
grounds at Queensboro: sweeping, mopping, and collecting trash. In this
work, they are also accompanied, at all times, by corrections officers.
7
A031

121a
45.

They are paid $10 per day.

46.

Mr. Ortiz does not have access to any treatment or programs that would
prepare him for his release into the community.

47.

Corrections officers have informed Mr. Ortiz and the other RTF detainees
that if they refuse to comply with orders or voice their dissatisfaction with
the lack of treatment provided, they will receive a Tier III ticket, be sent
back to Fishkill, and be placed at the bottom of the list for release.

48.

In short, no therapeutic programming is provided, and petitioner is under
constant threat of extended incarceration.

49.

Having the rare opportunity to participate in off-site work is the only thing
that distinguishes Mr. Ortiz from the general prison population. But in
contrast to the regular population, Mr. Ortiz is not allowed to visit with his
daughter because he is housed in the RTF.

50.

Nevertheless, petitioner has been told by DOCCS officials that he and others
like him who are being held at Queensboro past their ME dates are actually
on parole. He has even met with a Manhattan-based parole officer.

51.

Yet Petitioner has none of the freedom associated with post-release
supervision or parole and is not receiving any RTF-appropriate treatment.

52.

Moreover, he is subject to the prison disciplinary system, rather than
receiving the due process protections that would accompany alleged
violations of parole.

53.

With the exception of the off-site work assignments, Mr. Ortiz is not
permitted to leave the facility. And when he does leave the facility, he is
accompanied by corrections officers at all times.
8
A032

122a

54.

Simply put, his term of PRS has been converted into incarceration.

55.

Queensboro RTF is not Mr. Ortiz's "residence"—it is his prison.

56.

While Mr. Ortiz would certainly welcome having a home, residence, or
shelter that he could reside in during his re-entry into the community, he
would rather be homeless, i.e., transient or living on the street, than have to
remain incarcerated.

57.

At least then, in his words, the "endless nightmare" would finally be over.

Dated:

New York, New York
2018
June

ill ,

•

W LL A. PAGE
The Legal Aid Soc ety
Of Counsel

9
A033

123a
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF QUEENS
The People of the State of New York ex. rel.
ANGEL ORTIZ,
DIN 08-A-4974 & NYSID # 05394060J,
Petitioner,
- against DENNIS BRESLIN, Superintendent of Queensboro
Correctional Facility, and NEW YORK STATE
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION,
Respondents.

MEMORANDUM OF LAW
IN SUPPORT OF
PETITION FOR A
WRIT OF HABEAS CORPUS
Petitioner Angel Ortiz completed his maximum, 10-year term of
incarceration on March 4, 2018, yet he remains in custody. Respondents—the
New York State Department of Corrections and Community Supervision
(“DOCCS”) and the Superintendent of Queensboro Correctional Facility—are
continuing to hold him in de facto prison conditions rather than releasing him to
the community for his term of post-release supervision (“PRS”) despite the fact
that he has fully-served his prison sentence.
1
A112

124a
Respondents have extended petitioner’s confinement for one reason: he has
not accomplished the nearly impossible task of obtaining New York City housing
that is compliant with the Sexual Assault Reform Act (“SARA”), i.e., housing that
is not within 1,000 feet of a school or child care facility. Indeed, respondents kept
petitioner in prison for an extra year and a half between his earned Conditional
Release (“CR”) date and his Maximum Expiration (“ME”) date for the same
reason. During that time, they did little to nothing to help him find housing. Their
decision to further detain petitioner, at this point for three months past his ME date,
without a hearing violates procedural due process.

But more importantly,

confining petitioner in a Residential Treatment Facility (“RTF”) that functions as a
prison rather than a treatment center or residence, even though SARA does not
apply to individuals serving PRS (see infra Point III), violates his substantive due
process rights (see infra Point I) and constitutes cruel and unusual punishment (see
infra Point II). U.S. Const. amends. XIV, VIII; N.Y. Const. art. I, §§ 5, 6.
Therefore, the writ should be issued and petitioner released.

FACTS ALLEGED
The facts set forth in the accompanying petition and affirmation in support
of the petition are hereby incorporated in their entirety.

2
A113

125a
ARGUMENT
I.

Petitioner’s Confinement in the RTF vis-à-vis SARA
Violates Substantive Due Process by Depriving Him of
His Fundamental Liberty, Specifically His Right to Serve
His Term of Post-Release Supervision in the Community.

Petitioner’s incarceration was the result of his 2008 conviction, and the
sentence he received at that time is the one and only source for determining the
length of his punishment. After all, “it is well settled that a jailor’s authority to
confine a prisoner begins and ends with the sentence pronounced by the judge.”
Francis v. Fiacco, No. 15 Civ. 901 (MAD/ATB), 2018 WL 1384499, at *18
(N.D.N.Y. Mar. 16, 2018); see Vitek v. Jones, 445 U.S. 480, 493 (1980) (“a valid
criminal conviction and prison sentence extinguish a defendant’s right to freedom
from confinement”).

A determinate sentence, such as the one imposed on

petitioner, is comprised of two distinct components: a specific period of
imprisonment, and a specific period of post-release supervision. P.L. § 70.45(1).
The Penal Law mandates release to community supervision at the end of the
imposed term of imprisonment, i.e., at the ME date. Donnino, Supplementary
Practice Commentary, P.L. § 70.45.

Yet, despite reaching his ME date and

completing his 10-year term of incarceration on March 4, 2018, respondents have
not released petitioner from confinement.
Although it is true that “[a]s long as the conditions or degree of confinement
to which [a] prisoner is subjected is within the sentence imposed,” the liberty
3
A114

126a
interests protected by due process are not implicated, Montanye v. Haymes, 427
U.S. 236, 242 (1976) (emphasis added), where the State chooses to unilaterally
extend a term of incarceration by converting PRS into additional prison time, the
protections of due process apply with full force. Indeed, it is a longstanding
common-law principle that “a prisoner has a right to serve his sentence
continuously and in a timely manner, and to resettle after he has served his
sentence without the fear that the government . . . will reincarcerate him,” or
illegally detain him, after he completes his sentence. Vega v. United States, 493
F.3d 310, 318 (3d Cir. 2007) (discussing this common-law doctrine when
considering whether to provide credit against a term of incarceration for time spent
at liberty resulting from a mistaken release). Once his term of imprisonment is
complete, “a prisoner should have his chance to re-establish himself and live down
his past.” White v. Pearlman, 42 F.2d 788, 789 (10th Cir. 1930); see also Dunne v.
Keohane, 14 F.3d 335, 336 (7th Cir. 1994) (“[t]he government is not permitted to
delay the expiration of the sentence”).
This principle—that one should be released upon the completion of his or
her term of incarceration without fear of re-incarceration—is deeply-rooted in our
criminal justice system. Every day, countless defendants in New York City accept
a sentence of “time served” in exchange for a guilty plea based on the
understanding by all parties that the plea entitles them to immediate release
4
A115

127a
because of the time they have already spent in jail. Put simply, it would be
unconscionable to accept such a plea without ensuring that the defendant is aware
of exactly the potential incarceration—and supervision—associated with that plea.
See Ex parte Eldridge, 106 P. 980, 981 (Okla. 1910) (“The essential part of the
judgment is the punishment, and the amount thereof”). That is why the Court of
Appeals requires the vacatur of pleas where a defendant is never informed that
PRS will accompany an agreed-to sentence. People v. Estremera, 30 N.Y.3d 268,
270 (2017) (citing People v. Catu, 4 N.Y.3d 242, 245 (2005)).
Against this backdrop, it should not be controversial to expect that once
petitioner served his full prison term he was entitled to release. Mr. Ortiz pleaded
guilty and accepted a determinate sentence comprised of prison time and a period
of supervision in the community. Given the clear distinction between a term of
imprisonment and a term of PRS, when he completed the former, he was entitled to
begin the latter.

Respondents, however, have effectively merged his term of

incarceration with his term of post-release supervision,1 ignoring that they are
without the authority to do so and that such a merger is unconstitutional. Due
process and fundamental fairness mandate petitioner’s release into the community
so that he may begin serving his period of supervision in a timely manner.
1

If a guilty plea to a 10-year determinate sentence followed by 5 years of post-release
supervision simply means up to 15 years of potential prison time, then defendants should be so
advised prior to entering guilty pleas.

5
A116

128a
A. Petitioner has a protected liberty interest in serving his term of
PRS in the community rather than behind bars.
Respondent’s conversion of petitioner’s term of post-release supervision
into ongoing incarceration is, undeniably, a substantial infringement on his
fundamental liberty rights. “[T]he Due Process Clause contains a substantive
component that bars arbitrary, wrongful government actions” that impinge on
protected liberty interests “‘regardless of the fairness of the procedures used to
implement them.’” Zinermon v. Burch, 494 U.S. 113, 125 (1990); see U.S. v.
Salerno, 481 U.S. 739, 746 (1987).

Indeed, “commitment for any purpose

constitutes a significant deprivation of liberty that requires due process protection.”
Jones v. U.S., 463 U.S. 354, 361 (1983) (internal quotation marks omitted). Courts
are careful not to “minimize the importance and fundamental nature” of the
individual’s right to liberty, Salerno, 481 U.S. at 750, even where his or her liberty
interest is less extensive than that enjoyed by someone who has never been
convicted of a crime and is not subject to a prison sentence.
As relevant here, an individual who has reached his or her ME date has the
same fundamental liberty interest as a parolee. Victory v. Pataki, 814 F.3d 47, 60
(2d Cir. 2016); Morrissey v. Brewer, 408 U.S. 471, 482 (1972). Although the
imposition of “[p]ostrelease supervision is significant,” Catu, 4 N.Y.3d at 245, just
like a parolee, petitioner has a fundamental liberty interest in being free from
conditions resembling confinement during his term of PRS:
6
A117

129a
Th[at] liberty . . . enables him to do a wide range of
things open to persons who have never been convicted of
any crime. . . . Subject to the conditions of his parole, he
can be gainfully employed and is free to be with family
and friends and to form the other enduring attachments of
normal life. Though the State properly subjects him to
many restrictions not applicable to other citizens,
his condition is very different from that of confinement
in a prison.
Morrissey, 408 U.S. at 481-82 (emphasis added); see also In re Taylor, 343 P.3d
867, 879 (Cal. 2015) (“The parolee is not incarcerated; he is not subjected to a
prison regimen [or] to the rigors of prison life . . . . The parolee lives among people
who are free to come and go when and as they wish. Except for the conditions of
parole, he is one of them.”).
As petitioner has reached the ME date of the confinement portion of his
determinate sentence, he has a liberty interest, protected by due process, in being
released to post-release supervision.
B. Respondents are infringing on that liberty interest by holding
petitioner at the RTF and extending his term of confinement.
Respondent DOCCS is improperly using SARA to keep petitioner (and
many others) from enjoying that liberty. Under SARA, Executive Law § 259c(14), a person under supervision for a sex offense cannot be within 1,000 feet of a
school (or other child care-related facility) if he or she is designated a Risk

7
A118

130a
Level III under SORA or if the complainant was under the age of 18.2 The stated
purpose of these restrictions, which courts have interpreted to be residency
restrictions,3 is to protect children from sexual predators. Devine v. Annucci, 150
A.D.3d 1104, 1106 (2d Dep’t 2017). The restrictions are so broad, however, as to
make most of New York City off-limits to those subject to them. (See Exh. F (map
of off-limit areas)); see also In the Matter of Berlin v. Evans, 31 Misc. 3d 919
(Sup. Ct. N.Y. Co. 2011) (the 77-year-old petitioner was barred from most parts of
New York City, and the court found application of SARA to him violated the ex
post facto clause), appeal taken but dismissed, 103 A.D.3d 405 (1st Dep’t 2013)
(due to petitioner’s death).
The chance that a sex offender subject to SARA will find a suitable
apartment in New York City not within 1,000 feet of a school is “probably nonexistent.” People v. McFarland, 35 Misc. 3d 1243(A) (Sup. Ct. N.Y. Co. 2012),
rev’d on other grounds, 120 A.D.3d 1121 (1st Dep’t 2014). Given this housing

2

Executive Law § 259-c(14) provides: “where a person serving a sentence for an offense
defined in article [130], [135] or [263] of the penal law or section 255.25, 255.26 or 255.27 of
the penal law” against a minor “or such person has been designated a level three . . . pursuant to
[168-l(6)] of the correction law, is released on parole or conditionally released . . ., the board
shall require, as a mandatory condition of such release, that such sentenced offender shall refrain
from knowingly entering into or upon any school grounds, as that term is defined in [P.L.
§ 220.00(14)], or any other facility or institution primarily used for the care or treatment of
persons under the age of eighteen . . . .” (emphasis added).
3

“Courts have interpreted [SARA’s provisions] as creating a residency restriction prohibiting
certain classes of sex offenders from living within 1,000 feet of a school.” People v. Diack, 24
N.Y.3d 674, 682 (2015).

8
A119

131a
shortage, respondents turn to Penal Law § 70.45 to justify extending petitioner’s
term of incarceration by warehousing him and many others in so-called RTFs.
Under Penal Law § 70.45, the board of parole is authorized to impose, as a
condition of PRS, that an individual be transferred to an RTF for a period not
exceeding six months. Id. § 70.45(3). The statute makes clear, however, that the
time spent at the RTF cannot amount to confinement. Id. (during that time, the
individual would “participate in the programs of [the] facility”). More specifically,
Correction Law § 73(10) provides that DOCCS may use an RTF “as a residence
for persons who are on community supervision.” (emphasis added); see also Corr.
L. § 2(31) (defining the broad term “community supervision” to encompass all
forms of release, including “temporary release, presumptive release, parole,
conditional release, post-release supervision or medical parole”).

Therefore,

consistent with the statutory language, due process, and an individual’s
fundamental liberty interest in being free from confinement, the additional six
months may be spent in an RTF only if it is used as a residence and if rehabilitative
programming is provided.
While respondent DOCCS may claim that petitioner has been transferred to
an RTF and is serving only six months of PRS there, the reality is that he continues

9
A120

132a
to be confined in prison with no end in sight.4 When he was sent to Fishkill’s
RTF, he was housed with the general prison population, where he was subject to
the same conditions as any other inmate. Now that he is at Queensboro, he fares
no better. He is still housed with the general prison population; and he is still
subject to most of the same prison rules and regulations. See also infra Point III.B
(Queensboro is not an RTF). Critically, he is not free to leave the facility when he
chooses—or even during standard daylight hours—as he would be if it was truly a
residence rather than a prison. Indeed, some aspects of his life are even more
restricted than when he was in prison: he has been denied visitation with his
daughter, because respondents claim minors are prohibited from entering RTFs.
Adding insult to injury, petitioner’s continued imprisonment has deprived
him of a meaningful opportunity to find the type of housing that would effectuate
his release. Unlike a person actually serving PRS, he is not free to search the
internet for listings, to visit apartments that are on the market, or to access a phone
where potential landlords could contact him. Thus, warehousing him at the socalled RTF infringes on his freedom as a parolee, as well as his freedom to interact
with his family, in a ceaseless, self-perpetuating cycle: they cannot visit him, and
he cannot leave to visit them.
4

Given respondents’ disregard for Mr. Ortiz’s previous “release” dates, petitioner has no faith
that he will be released prior to the end of his term of PRS. And notably, because they ignored
his earned conditional release, respondents have extended his term of PRS from 2021 to 2023.

10
A121

133a
When the court imposed petitioner’s sentence, there were two distinct
portions: a period of confinement (10 years) and a period of supervision in the
community (5 years).

The prison portion reflects the court’s judgment and

authorizes the custody of petitioner. Earley v. Murray, 451 F.3d 71, 74 (2d Cir.
2006). Since his ME date of March 4, 2018 (and possibly at his CR date of
September 28, 2016), petitioner has had a fundamental liberty interest in not being
confined. Yet to this day, he remains unlawfully detained by respondents in a
correctional facility where he is treated as a prisoner, not a resident.
Respondents cannot unilaterally adjust petitioner’s sentence. He was not
sentenced to a blanket term of 15 years of imprisonment to be delineated in
whatever fashion respondents wish.

By ignoring the meaningful distinction

between PRS and confinement, respondents are substantially infringing on
petitioner’s protected liberty interest.
C. Respondents’ decision to hold petitioner at the RTF in prison-like
conditions is fundamentally unfair and, in any event, is not
narrowly tailored to the goal of protecting children, as required to
justify the infringement on his liberty.
Because respondents have infringed on petitioner’s fundamental liberty
interests, substantive due process affords heightened protection, requiring the state
to show that the infringement is narrowly tailored to serve a compelling state
interest—i.e., respondents must satisfy strict scrutiny review. See Washington v.
Glucksberg, 521 U.S. 702, 720 (1997). Federal courts have consistently applied
11
A122

134a
strict scrutiny to conditions of supervised release restricting the liberty interests of
someone under post-incarceration supervision. See, e.g., U.S. v. Reeves, 591 F.3d
77, 82-83 (2d Cir. 2010) (“assuming arguendo that the goal of the condition
[requiring parolee notify any potential romantic partner of his sex offender status]
is the protection of children, [the court] conclude[s] that it is not narrowly tailored
since it applies to any significant romantic relationship”); U.S. v. Myers, 426 F.3d
117, 126 (2d Cir. 2005) (Sotomayor, J.) (“If the liberty interest at stake is
fundamental [such as the parent-child relationship], a deprivation of that liberty is
“reasonably necessary” only if the deprivation is narrowly tailored to serve a
compelling government interest.”); Doe v. Lima, 270 F. Supp. 3d 684, 702
(S.D.N.Y. 2017) (“strict scrutiny [applies] to restrictions on liberty incident to
post-prison supervisory regimes, whether denominated as parole (as in New York
State) or as supervised release (as in the federal system)”).
And recently, a federal district court considering the Colorado SORA
statute, which does not even have residency restrictions, held that the statute
“enter[ed] the ‘zone of arbitrariness’” such that its enforcement became
“fundamentally unfair.” Millard v. Rankin, 265 F. Supp. 3d 1211, 1234-35 (D.
Colo. 2017) (appeal pending). Colorado’s statute provided only for broad public
disclosure of registrants’ personal information. Id. at 1234. Yet, because of the
rampant misuse of the information, such disclosure deprived individuals of their
12
A123

135a
right to privacy and violated their liberty interests in living, working, associating
with their families and friends, and circulating in society. Id. at 1234-35.
Like a parolee, petitioner has a fundamental liberty interest in being free
from confinement, a freedom that includes gainful employment, association with
family and friends, and reintegration with the community outside of a prison.
Therefore, respondents’ decision to hold him indefinitely at an RTF must be
narrowly tailored to the compelling government interest at stake—the protection of
children—in order to be a constitutionally permissible infringement on that
freedom. But petitioner presents no particular risk to children, as his instant
offense was not committed against a minor. And nothing justifies separating
petitioner from his daughter. Thus, respondents cannot defend their unilateral
extension of petitioner’s term of incarceration. In fact, by relying on SARA as an
excuse to extend petitioner’s confinement, respondents demonstrate that they have
done nothing to narrowly tailor the infringement towards that supposed goal.5
5

Even if the court finds that ‘strict scrutiny’ review does not apply to petitioner’s liberty interest
as curtailed by § 259-14(c), it should still find that the statute was unconstitutionally applied to
petitioner. “[T]he State Constitution’s Due Process Clause [] provide[s] greater protection than
its federal counterpart.” People v. LaValle, 3 N.Y.3d 88, 127 (2004); accord Cooper v. Morin,
49 N.Y.2d 69, 79 (1979) (court should “balanc[e] the harm to the individual resulting from the
condition imposed against the benefit sought by the government through its enforcement”).
Under intermediate scrutiny, the state must show that the statute is “substantially related” to the
achievement of important government interests. Anonymous v. Rochester, 13 N.Y.3d 35, 48
(2009) (requirement ensures “that the validity [of the statute] is determined through reasoned
analysis rather than through the mechanical application of traditional, often inaccurate
assumptions”). Here, however, the nexus between the infringement upon petitioner’s liberty
rights and the goal of protecting minors cannot even be deemed substantial.

13
A124

136a
Significantly, as time passes and evidence accumulates in the wake of
various states enacting SARA-like residency restrictions, social scientists have
found no linkage between the restrictions and rates of sex offenses targeting
children. Thus, experts have largely concluded that residency restrictions “should
not be considered a viable strategy for protecting communities.” Jill S. Levenson
& Andrea L. Hern, Sex Offender Residence Restrictions: Unintended
Consequences and Community Reentry, 9 Just. Res. & Pol’y 59, 61 (2007). For
instance, in Iowa, residency restrictions were found to have no impact on either the
rate of sex crimes or the number of child victims. 6 Studies in Colorado and Florida
also showed that sex offenders living within 1,000 to 2,500 feet of a school or
daycare did not reoffend more often than those who lived farther away. 7
At this point in time, it is obvious that residency restrictions “are unlikely to
deter sex offenders from committing new sex crimes[.]” Levenson & Hern, at 61.
Indeed, consistent with the mounting research, courts have begun to acknowledge
the arbitrariness of imposing such restrictions. For example, in striking down
Michigan’s SORA’s residency restrictions on ex post facto grounds, the Sixth
6

See Adkins, G., Huff, D. & Stageberg, P., Iowa Dep’t of Human Rights Div. of Criminal &
Juvenile Justice Planning & Statistical Analysis Ctr., The Iowa Sex Offender Registry &
Recidivism 16 (2000).
7

See Assoc. for the Trtmt. of Sexual Abusers, Sexual Offender Residence Restrictions, at 2
(Aug. 2, 2014); Zandberger, P., Levenson, J.S., & Hart, T., Residential Proximity to Schools and
Daycares: An empirical analysis of sex offense recidivism, CRIM. J. & BEHAVIOR, 37(5), at 482502 (2010) (Florida); Colorado Sex Offender Mgmt. Bd., White Paper on the Use of Residence
Restrictions as a Sex Offender Management Tool, at 2 (June 2009).

14
A125

137a
Circuit highlighted the absence of any record suggesting “that residential
restrictions have any beneficial effect on recidivism rates.” Does #1-5 v. Snyder,
834 F.3d 696, 705 (6th Cir. 2016); see also The Pointless Banishment of Sex
Offenders, New York Times, September 8, 2015 (“there is not a single piece of
evidence that [residency restrictions] actually” protect children); 8 Housing
Restrictions Keep Sex Offenders in Prison Beyond Release Dates, New York
Times, August 21, 2014.9
In New York, the Appellate Division, Third Department, has recognized that
residency requirements not only do nothing to protect the public, but they impede
public safety. People ex rel. Green v. Superintendent of Sullivan Corr. Fac., 137
A.D.3d 56, 60 (3d Dep’t 2016). That is because “offenders are less likely to
recidivate when they are provided with suitable housing and employment.” Id.;
see also Matter of State of New York v. Floyd Y., 56 Misc. 3d 271, fns. 2, 3, 4 (Sup.
Ct. N.Y. Co. 2017) (Conviser, J.). Given the recognized failings of SARA’s
restrictions, they cannot be used to keep an offender confined beyond his or her
ME date unless the offender presents an acute threat to children. Petitioner does
not. The SORA hearing court found that he presented a high risk of reoffending in

8

Available at https://www.nytimes.com/2015/09/08/opinion/the-pointless-banishment-of-sexoffenders.html (last visited June 18, 2018).
9

Available at https://www.nytimes.com/2014/08/22/nyregion/with-new-limits-on-where-theycan-go-sex-offenders-are-held-after-serving-sentences.html (last visited June 18, 2018).

15
A126

138a
general, but made no specific finding regarding his risk to children (and his instant
offense did not involve a minor).
Rather, by imposing SARA’s housing restrictions on individuals who are
ready to begin their terms of PRS, respondents are creating an obstacle to release.
And it is an obstacle that these individuals, who have served their prison time,
cannot surmount because they have none of the resources necessary to seek and
obtain the rare but required SARA-compliant housing. Perhaps someone with
unlimited economic resources would not be hindered; but for the vast majority, the
imposition of SARA results in an automatic extension of their confinement even
though the statute—on its face—does not apply to those, like petitioner, serving
PRS after completing their term of incarceration. See infra Point III.A. 10
Moreover, respondents’ actions short-circuit one of the few benefits
available to individuals in petitioner’s situation. Under New York City Code,
because Mr. Ortiz intends to reside in the City and is a single resident with no
assets or means of financial support, the City is required to provide him with
shelter that is SARA-compliant. See 18 N.Y.C.R.R. 352.36(a)(4)(iv), (b). Because
10

The Court of Appeals in People v. Diack, 24 N.Y.3d 674 (2015), mentioned post-release
supervision during its analysis of whether SARA’s restrictions preempted more severe local
restrictions. Id. at 681 (“Executive Law § 259–c(14) was added to require the Parole Board to
impose the school grounds mandatory condition on offenders . . . who are released on parole,
who are conditionally released or who are subject to a period of post-release supervision”)
(emphasis added). The Court, however, provided no justification for including PRS and did not
discuss the text of the statute or the difference between early release and release after serving a
full prison term. This dicta, which was irrelevant to the question at hand in Diack, was likely an
error and does not control the statutory interpretation of § 259–c(14).

16
A127

139a
respondents have preemptively detained Mr. Ortiz, in no small part due to the
limited nature of SARA-complaint shelters in the City, he cannot even attempt to
exercise his right to such shelter or demand the City live up to its obligations.
* * *
Keeping petitioner confined beyond his ME date simply for not having a
SARA-compliant address is an extreme infringement on his fundamental liberty to
be free from confinement, as well as his rights to associate with family and friends
and to form other enduring attachments of normal life. See Morrissey, 408 U.S.
at 482. As the Supreme Court of California recently held with respect to “the
mandatory residency restrictions of [California’s] Jessica’s Law, as applied to
registered sex offenders on parole in San Diego County”:
[B]lanket enforcement of [such restrictions] cannot
survive even the more deferential rational basis standard
of constitutional review. Such enforcement has imposed
harsh and severe restrictions and disabilities on the
affected parolees’ liberty and privacy rights, however
limited, while producing conditions that hamper, rather
than foster, efforts to monitor, supervise, and rehabilitate
these persons.
Accordingly, it bears no rational
relationship to advancing the state’s legitimate goal of
protecting children from sexual predators, and has
infringed the affected parolees’ basic constitutional right
to be free of official action that is unreasonable, arbitrary,
and oppressive.
In re Taylor, 343 P.3d 867, 879 (Cal. 2015) (buffer zone at issue was 2,000 feet).

17
A128

140a
Placing petitioner in an RTF, under conditions that amount to confinement
rather than simply as a residence, does not cure these substantive due process
violations;11 therefore, Mr. Ortiz is entitled to immediate release.
II.

Petitioner’s Continued Confinement After His Term of
Incarceration Also Violates the Eighth Amendment
Prohibition on Cruel and Unusual Punishment.

“[C]onfinement in a prison pursuant to a conviction but beyond the term of a
sentence seems . . . quintessentially punitive” and, thus, risks running afoul of the
Eighth Amendment. Sample v. Diecks, 885 F.2d 1099, 1108 (3d Cir. 1989); see
also Com. v. Baker, 295 S.W.3d 437, 446 (K y. 2009) (“the ‘magnitude of the
restraint’ involved in residency restrictions is sufficient for a lack of individual
assessment to render the statute punitive”). While a de minimis delay in releasing
an inmate from confinement may be acceptable by Eighth Amendment standards, a
prolonged delay of multiple months, as here, constitutes cruel and unusual
punishment. Calhoun v. New York State Div. of Parole Officers, 999 F.2d 647,
654 (2d Cir. 1993).
It is difficult to conceive of anything more cruel than respondents’
abrogation of petitioner’s right to liberty at the conclusion of his judicially imposed
term of incarceration simply because the State has failed, over a period of 19
months, to secure housing that it considers suitable for his release. See Gonzalez v.
11

In any event, such confinement cannot last more than six months under New York’s scheme.

18
A129

141a
Annucci, 149 A.D.3d 256, 263 (3d Dep’t 2017) (citing Correction Law § 201(5))
(there is an “affirmative statutory obligation to assist offenders in the process of
finding housing”). The length of his incarceration must relate to the offense, and
some level of criminal culpability is required to impose a term of incarceration.
For that reason, the United States Supreme Court struck down a 90-day jail term
for “be[ing] addicted to the use of narcotics” as in conflict with the Eighth
Amendment. Robinson v. California, 370 U.S. 660 (1962). The Court explained:
To be sure, imprisonment for ninety days is not, in the
abstract, a punishment which is either cruel or unusual.
But the question cannot be considered in the abstract.
Even one day in prison would be a cruel and unusual
punishment for the “crime” of having a common cold.
Id. at 667 (the court analogized being addicted to drugs to catching a virus in order
to emphasize the lack of control a defendant has over the allegedly culpable act).
In the same way, petitioner has, in essence, been convicted—with no
procedural due process whatsoever 12—of not having SARA-suitable housing and
been sentenced to additional prison time on top of the ten years he already served.
Respondents’ actions are tantamount to declaring homelessness or poverty to be a
crime. And, as the Court of Criminal Appeals in Alabama has held, it violates the
prohibition against cruel and unusual punishment to require “a sex offender [to]
12

It is as though respondents are attempting to effectuate civil confinement but without
employing the necessary procedures. Compare Kansas v. Hendricks, 521 U.S. 346, 357 (1997)
(“We have consistently upheld such involuntary commitment statutes provided the confinement
takes place pursuant to proper procedures and evidentiary standards.”) (emphasis added).

19
A130

142a
provide an ‘actual address at which he or she will reside’” prior to his release for
precisely that reason—because doing so would effectively require him serve
additional jail time while he searches, in vain, for housing. State v. Adams, 91 So.
3d 724, 738-39 (Ala. Crim. App. 2010) (holding such a requirement “punishes the
defendant solely for his status of being homeless”); see also Vann v. State, 143 So.
3d 850, 862 (Ala. Crim. App. 2013) (under the new version of the law passed in
the wake of State v. Adams, “the sex offender is not required to provide a specific
street or route address of a fixed place to live where mail can be received, which
would be impossible for an indigent homeless offender”). Such a penalty, which is
currently being imposed on petitioner for a situation outside of his control, cannot
be countenanced under Eighth Amendment jurisprudence.
Moreover, petitioner was never informed that his term of PRS could amount
to another term of incarceration under a different name. Nor could the State or the
sentencing judge have constitutionally imposed such a sentence. See Furman v.
Georgia, 408 U.S. 238, 241 (1972) (“It is [] settled that the proscription of cruel
and unusual punishments forbids the judicial imposition of them as well as their
imposition by the legislature.”); see also Solem v. Helm, 463 U.S. 277, 286 (1983)
(sentences imposed must be proportional); Peterson v. Tomaselli, 469 F. Supp. 2d
146, 163 (S.D.N.Y. 2007) (“it may be argued that it is not ‘cruel and unusual’ to
hold a prisoner [past his CR date] for up to his [ME date], unless that sentence is
20
A131

143a
grossly disproportionate to the crime committed”) (emphasis added); cf. State v.
Myers, 22 Misc. 3d 809, 820 (Sup. Ct. Albany Co. 2008) (when analyzing the
State’s attempt to hold a class of individuals in prison for “orderly” resentencing,
the court found it persuasive and problematic that “the end result” of the litigation
“could be the continued incarceration of individuals, some of whom have already
served and completed their sentences”).
Petitioner is, therefore, entitled to his immediate release.
III.

SARA Does Not Apply to Offenders on PRS; And,
Queensboro RTF Does Not Satisfy the Statutory
Requirements for an RTF—It is a Prison.

Petitioner’s ongoing detention by respondents at the Queensboro RTF is also
illegal because the statutory language makes it clear that SARA does not apply to
persons on PRS after serving a full prison term. Moreover, even if it did, this RTF
does not qualify as a “residential treatment facility” pursuant to the statutory
requirements for such facilities because none of the required treatment or programs
are provided. Therefore, petitioner is entitled to immediate release.
A. SARA does not apply to petitioner, who is serving a term of PRS.
Petitioner is not subject to SARA because SARA applies to those released
early either on parole or on conditional release, not to those serving PRS after the
expiration of their term of incarceration. It is a well-recognized canon of statutory
construction that general statutes yield to more specific ones, especially to resolve
21
A132

144a
conflicts between statutes. See United States v. Estate of Romani, 523 U.S. 517,
532 (1998) (“more recent and specific provisions . . . apply [should] they [] conflict
with [an] older [] statute”); Fourco Glass Co. v. Transmirra Products Corp., 353
U.S. 222, 228 (1957) (“Specific terms prevail over the general in the same or
another statute”); Dutchess Cnty. Dep’t of Social Servs. ex rel. Day v. Day, 96
N.Y.2d 149, 153-54 (2001) (these are “well-established rule[s] of statutory
construction”).

The SARA specific portion of Executive Law § 259-c is no

exception, and indeed limits who can be subject to SARA’s residency restrictions.
The text of the SARA statute, Executive Law § 259-c(14), explicitly limits
its application to those “released on parole or conditionally released pursuant to
subdivision one or two of this section.” (emphasis added). Subdivisions one and
two of Executive Law § 259-c concern inmates who “may be released on parole or
on medical parole,” § 259-c(1), or who “may be presumptively released,
conditionally released or subject to a period of post-release supervision under an
indeterminate or determinate sentence of imprisonment,” § 259-c(2). While the
Legislature authorized the Board of Parole to determine the conditions of release
for those “subject to a period of post-release supervision,” Exec. L. § 259-c(2), the
legislature specifically chose to limit those subject to SARA, one particularly
onerous condition of release, to those released early. Exec. L. § 259-c(14) (“on
parole or conditionally released”). Thus, the statute’s plain, legislatively-imposed
22
A133

145a
language narrows the scope of the residency restrictions to those subject to
supervision on early release. See Exec. L. § 259-c(14); P.L. § 65.10; see also N.Y.
State Assembly Bill No. A8894 (June 17, 2005); N.Y. State Senate Bill No. 479-A.
PRS in this context is a distinct category of supervision separate and apart
from parole, conditional release, and other forms of early release. This is made
apparent by the definition of “community supervision,” which includes various
forms of release: “the supervision of individuals released into the community on
temporary release, presumptive release, parole, conditional release, post-release
supervision or medical parole.” Corr. L. § 2(10); Exec. L. § 259(3). Petitioner is
certainly subject to community supervision: he is supposed to be serving his term
of PRS. However, he was neither paroled nor conditionally released. Instead, he
was improperly transferred to Fishkill RTF immediately before his ME Date, not
on his conditional release date or on a parole date, and he is being held now in
Queensboro RTF long after the expiration of his term of incarceration.
Where the Legislature has intended to address only some of the distinct
forms of release, it has explicitly enumerated which ones: e.g., by authorizing the
Board of Parole or DOCCS to grant “presumptive release” and “conditional
release,” Corr. L. § 206; to grant “presumptive release” to nonviolent inmates,
Corr. L. § 806; to grant “temporary release,” Corr. L. § 855; to grant “medical
parole,” Exec. L. §§ 259-r, 259-s; to grant “parole,” Exec. L. § 259-c(1); to
23
A134

146a
determine the conditions of release for those “presumptively released,
conditionally released or subject to a period of post-release supervision” under an
indeterminate or determinate sentence, Exec. L. § 259-c(2); and to apply SARA to
those “released on parole or conditionally released,” Exec. L. § 259-c(14).
At the time of SARA’s original enactment in 2000, the Legislature
recognized a legal right to serve PRS in the community, and authorized a limited,
maximum six-month stay in an RTF as a transition to living in the community for
those who DOCCS felt needed it. P.L. § 70.45(3). At the same time, it recognized
the privileged nature of parole and conditional release, authorizing the use of RTFs
to house individuals on those—and only those—two forms of release at any point
in time, for any length of time (up to the individuals’ ME dates), and for any
reason. Indeed, Correction Law § 73 gives the commissioner a wide range of
power over inmates housed in RTFs.
For example, § 73(5) provides that “[t]he commissioner may at any time and
for any reason transfer an inmate from a residential treatment facility to another
correctional facility.” (emphasis added). But while this subsection clearly applies
to individuals sent to an RTF who are still serving the incarceration portion of their
sentence, it cannot apply to a parolee or a person on PRS who has reached his or
her ME date—they are no longer “inmates” and cannot simply be transferred back
to another prison. Their return to a correctional facility must satisfy the due
24
A135

147a
process requirements governing parole or PRS revocation, despite the threats made
by the correctional officers to petitioner and others held at the RTF regarding
Tier III tickets and a return to Fishkill. See Bennett v. Annucci, No. 2016-07219,
2018 N.Y. Slip Op. 04319, 2018 WL 2945673, at *1 (2d Dep’t June 13, 2018)
(parolee held at RTF is “subject to the conditions of PRS and [can] properly be
charged with a violation of those conditions,” which requires a revocation hearing).
Finally, when the Legislature amended SARA in 2005 to add Level III
offenders and to establish the 1,000 foot perimeter around schools, it again chose
to exclude PRS from its application. Both in the Title of the 2000 act and in the
Memorandum in Support of Legislation in 2005, the Legislature confirmed that
SARA applied only to certain sex offenders “placed on conditional release or
parole.” And these statutory provisions make sense. Indeed, imagine the absurdity
of releasing an inmate on, e.g., medical parole for treatment only to find that he
cannot be housed at any medical facility because of SARA restrictions.
Release on PRS is a legal right, not a privilege to be earned. (See supra
Point I.) 13 Once Mr. Ortiz reached his judicially-imposed ME date, there had to be
a time limit on the amount of time he could be held in an RTF (though, still, only

13

In fact, discussing PRS and conditional release in other litigation, DOCCS has conceded that
“there is a clear and obvious difference where one group of inmates has a right to release, versus
a group that does not.” Matter of Luis Rodriguez v. Tina Stanford, N.Y. Bd. of Parole,
No. 2017/0773, Respondent Affirmation in Opposition to Motion to Amend the Petition and In
Opposition to the Amended Petition ¶ 18 (emphasis in original) (Exh. G).

25
A136

148a
as a residence) if needed. Applying SARA for the full length of his term of PRS
would hinder that limitation, and indeed his rehabilitation. By contrast, parole and
conditional release are privileges, as individuals continue to serve their underlying
prison terms, which is reconcilable with SARA’s application.
“Parole,” “conditional release,” “post-release supervision,” and “community
supervision” are not interchangeable at DOCCS’ whim. The Legislature did not
authorize the Board to apply SARA to any individuals other than those “released
on parole or conditionally released”—not to those on “temporary release,”
“presumptive release,” “medical parole,” or as relevant here “post-release
supervision.” See Exec. L. §§ 259-c(14), 259(3). Unless SARA is amended, this
Court cannot, as respondents have, read PRS into the SARA statute.
B. Queensboro does not qualify as an RTF, given the conditions of
confinement to which petitioner is subject.
Finally, placing petitioner in a correctional facility designated by DOCCS as
an RTF does not satisfy substantive due process. The conditions imposed on
petitioner in the RTF must be consistent with his protected liberty interests. See
People v. Correa, 15 N.Y.3d 213, 233 (2010) (statutes should be interpreted and
applied so as to avoid “constitutional infirmity”). Here, the RTF should function
only as petitioner’s residence. Corr. L. § 73(10). But in any event, the RTF must
also be, in fact, a “residential treatment facility,” which Queensboro is not.

26
A137

149a
The status of persons in RTFs vary greatly. 14 They may have served the
entire confinement portion of their sentence or they may still be serving that
portion and “soon be eligible for release on parole,” “will become eligible for
community supervision,” or have “one year or less remaining to be served under
his or her sentence.”

Corr. L. § 2(6).

Understandably, the RTF conditions

imposed on them will vary with their status.
Correction Law § 73(2) provides that “[t]he department shall be responsible
for securing appropriate education, on-the-job training and employment for
inmates transferred to residential treatment facilities.”

The Department “shall

supervise such inmates during their participation in activities outside any such
facility and at all times while they are outside any such facility.” Id. (emphasis
added).

Certainly inmates who are serving the confinement portion of their

sentence may justifiably be subject to supervision at all times outside the RTF, but
parolees and persons under post-release supervision cannot be subject to such
conditions. They should be able to work outside without an armed guard hovering
over them. Indeed, as previously explained, § 73(10) requires that when “persons
14

An RTF is defined as “[a] correctional facility consisting of a community based residence in
or near a community where employment, educational and training opportunities are readily
available for persons who are on parole or conditional release and for persons who are or who
will soon be eligible for release on parole who intend to reside in or near that community when
released.” Corr. L. § 2(6) (emphasis added). “[T]he commissioner may transfer any inmate of a
correctional facility who is eligible for community supervision or who will become eligible for
community supervision within six months after the date of transfer or who has one year or less
remaining to be served under his or her sentence to a residential treatment facility . . . .” Corr. L.
§ 73(1) (emphasis added).

27
A138

150a
who are on community supervision” are provided housing at an RTF, it should be
treated as a “residence.”
As multiple courts have found, Fishkill, Queensboro, and other correctional
facilities that are designated as RTFs function, in reality, as prisons. See, e.g.,
People ex rel. Scarberry, No. 3963/2014, at 2 (Sup. Ct. Dutchess Co. Nov. 21,
2014) (Rosa, J.) (Exh. H) (holding that “[w]hile there are distinctions in the daily
schedule and treatment of RTF [Fishkill] residents and the general population of
inmates at the FCF, these are de minimis and insufficient to satisfy the
requirements of C.L. § 2(6) and § 73,” and that petitioner, while nominally housed
at the Fishkill RTF, was “still a prisoner”); People ex rel. Joe, No. 7985/2014 (Sup.
Ct. Columbia Co. Oct. 30, 2014) (Hudson C.F. is not an RTF) (Exh. I); People ex
rel. Davis v. Superintendent, 11 Misc. 3d 1072(A) (Sup. Ct. Seneca Co. 2006)
(“Habeas corpus relief is not only available to one in prison but also to one
‘otherwise restrained in his liberty.’. . . That Willard is not defined as a
‘correctional facility’ [] is of no moment. It is the reality of the circumstances and
not the title ascribed to them that matters.”).
The goal of RTFs is “the rehabilitation and total reintegration into the
community” of its “residents.” Corr. L. § 73(3); see Corr. L. § 201(7) (DOCCS
“shall encourage apprenticeship training of such persons through the assistance and
cooperation of industrial, commercial and labor organizations”), § 201(5) (DOCCS
28
A139

151a
“shall assist inmates eligible for community supervision and inmates who are on
community supervision to secure employment, educational or vocational training,
and housing”); see also 7 N.Y.C.R.R. § 1.5(m); 9 N.Y.C.R.R. § 8002.7(d)(4). In
furtherance of those goals, DOCCS is to assign each RTF resident to a specific
program geared toward those ends, Corr. L. § 73(3), and secure appropriate
education, on-the-job training, and employment for them, Corr. L. § 73(2).
However, the only job petitioner has been offered is that of a “porter” inside
the walls of the correctional facility, which consists of ministerial janitorial work
and is the same job offered to inmates serving their sentences. It involves no
training.

Similarly, the only community reintegration and education program

offered is the same that is offered to all inmates preparing to transition out of
custody (Transitional Phase III programming).

It involves no job-readiness

preparation inside or outside of prison walls. Nor can unloading trucks, albeit
outside the facility, a handful of times honestly be viewed as job-readiness
preparation. Petitioner is already trained as a driver and in the culinary arts, but
respondents are doing nothing to capitalize on his re-entry potential in those fields.
The other programs that DOCCS lists as available at Queensboro generally
are, in fact, not available to residents of the RTF portion of the facility. And,
absent an effective system that allows petitioner to find compliant housing,
respondents cannot indefinitely confine him pursuant to SARA under what must be
29
A140

152a
a pretext of assistance. By now, 19 months after Mr. Ortiz was due to be released,
respondents should have found him the necessary housing. Instead, as a parolee in
name alone, he is being more accurately called an inmate by the prison staff and
threatened daily with re-incarceration further away from the city.
In sum, merely naming a prison an RTF does not make it one. Cf. Ek v.
United States, 308 F. Supp. 1155, 1157 (S.D.N.Y. 1969) (“It may be true that
‘stone walls and iron bars do not a prison make,’ in song; but where, as here,
petitioner [continues to be] incarcerated . . ., it is disingenuous to contend that he
has not been ‘imprisoned.’”).
* * *
Respondents certified petitioner’s good time and told him he was eligible for
release on September 28, 2016. Then, after ignoring that deadline, they moved the
target to March 4, 2018. They have now had over 19 months to help Mr. Ortiz find
SARA-compliant housing, but they have failed to do so. They cannot be allowed
to continue on this path and, based on a misreading of SARA and the Correction
Law, extend petitioner’s imprisonment indefinitely.

30
A141

153a

CONCLUSION
FOR ALL OF THE REASONS STATED
HEREIN, PETITIONER IS ENTITLED TO
IMMEDIATE
HIS
RELEASE;
THERFORE, THIS COURT SHOULD
ISSUE THE WRIT AND GRANT ANY
OTHER RELIEF DEEMED PROPER.

Dated:

New York, New York
June 4, 2018

Respectfully s

Will A. Pa
Of Counse
Seymour W. James, Jr., Esq.
THE LEGAL AID SOCIETY
Criminal Appeals Bureau
199 Water Street
New York, New York 10038
Telephone No. (212) 577-3442
Attorneysfor Petitioner

31
A142

154a
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF QUEENS
The People of the State of New York ex. rel.
ANGEL ORTIZ,
DIN 08-A-4974 & NYSID # 05394060J,
Petitioner,
- against DENNIS BRESLIN, Superintendent of Queensboro
Correctional Facility, and NEW YORK STATE
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION,

AFFIRMATION
IN FURTHER
SUPPORT OF AND
IN REPLY TO
RESPONDENTS’
OPPOSITION TO A
WRIT OF
HABEAS CORPUS
S.P. No. 113-2018
Justice Latella

Respondents.
STATE OF NEW YORK
COUNTY OF NEW YORK

ss.:

WILL A. PAGE, Esq., an attorney duly admitted to the practice of law in this State
and not a party to the instant action, does hereby subscribe and affirm under
penalty of perjury the following to be true pursuant to C.P.L.R. § 2106:
1.

I am of counsel to JUSTINE LUONGO, Esq., The Legal Aid Society,
Criminal Appeals Bureau, the attorney of record herein.

2.

I make the following affirmation in further support of Mr. Ortiz’s petition
for a writ of habeas corpus and in reply to the opposition filed by
respondents on August 20, 2018. (See Affirmation of Yan Fu in Opp’n to
Petition (“Opp’n”).)

This supplemental affirmation incorporates the

allegations made in petitioner’s June 25, 2018 petition, and provides
additional details and evidence concerning Mr. Ortiz’s custody.
1
A195

155a
3.

As will be explored below, the constitutional grounds for granting the writ
remain compelling, and were only cursorily addressed by respondents.

4.

Moreover, the conditions and circumstances surrounding Mr. Ortiz’s
prolonged detention at Queensboro Correctional Facility are not as
respondents have described them.

5.

Included with this affirmation are what I believe to be true and correct
copies of the following exhibits:
Exhibit J:

Letter from Deputy Commissioner Ana Enright to
Mr. Ortiz regarding the end of petitioner’s period of postrelease supervision, dated August 13, 2018.

Exhibit K: Redacted and coded excerpts from internal DOCCS
spreadsheets documenting the status of various
individuals on the “Active RTF” list as a result of SARA
housing restrictions, obtained through related litigation.
Exhibit L:

6.

Response from ORC Caceres to petitioner regarding
Mr. Ortiz’s repeated requests to be released from
imprisonment to a shelter, dated August 4, 2018.

Mr. Ortiz has also provided an affidavit further detailing the conditions of
his confinement. (See Affidavit of Angel Ortiz dated August 30, 2018
(“Ortiz Aff.”).)

7.

To the extent the Court seeks additional evidence on any of the allegations
made as part of this petition, petitioner reiterates his request to be present at
a hearing where such evidence and testimony can be introduced.

8.

Should respondents release Mr. Ortiz from custody prior to the hearing,
which is currently scheduled for September 5, 2018, petitioner requests that
the Court convert this action to a proceeding pursuant to Article 78 to
address the issues that are not rendered moot by his release.
2
A196

156a
9.

Examples of these persistent issues include a) the inappropriateness of
Queensboro as an RTF for sex offenders detained pursuant to SARA,
(see Exhibit E), and b) the unconscionable extension of Mr. Ortiz’s term of
PRS. (Compare Exhibit A (original end date listed as Sept. 28, 2021), with
Exhibit D (revised end date listed as Mar. 2, 2023); see also Exhibit J.)

Custody Conditions Akin to Imprisonment
10.

Mr. Ortiz describes the situation at the RTF as “frightening” and “tense.”
(See Ortiz Aff. at ¶¶13-14.)

11.

This

is

unsurprising

given

that

the

SORA-registered

individuals

involuntarily confined at the RTF (“SARA-RTF inmates”) are lumped
together with non-RTF prisoners serving “regular” time. (Id. at ¶13.)
12.

Rather than a therapeutic environment, the prison is replete with gang
activity and threats being made against the SARA-RTF inmates.

(Id.

at ¶15.)
13.

As for programming, Mr. Ortiz continues to be utilized as part of a “work
crew,” but he and the others do not receive any sex offender therapy or drug
abuse treatment. (Id. at ¶¶17-20.)

14.

The staff at Queensboro explained to the SARA-RTF inmates that “because
of all the litigation” Queensboro and Parole were required to provide
“something,” which is one program, an Aggression Replacement Therapy
course, once every two weeks. (Id. at ¶¶21-22.) The affidavit provided by
the Deputy Superintendent of Programs, Mr. Barometre, submitted by
respondents in opposition to the petition, confirms this bi-weekly
“programming” as “arranged by the Community Supervision staff.”
(Affidavit of Delta Barometre (“Barometre Aff.”) at ¶8.)
3
A197

157a
15.

But respondents tacitly admit that the SARA-RTF inmates are not receiving
any appropriate or worthwhile residential treatment. Instead, these SARARTF inmates are provided the opportunity to unload boxes and clean for $10
a day. (Opp’n at ¶23; Barometre Aff. at ¶6.)

16.

While Mr. Barometre describes this opportunity as “more than any inmate
can earn in the prison vocational programs,” (Barometre Aff. at ¶6), an RTF
is supposed to provide re-entry services, not exploit the manual labor of
forced residents at a substandard hourly wage (less than $2 per hour).
(See Exhibit E (“The principal objectives of the Reentry Services Program
are to provide inmates . . . with an opportunity to finalize their release plans,
to work toward family and community reintegration, and to strive for an
orderly transition back into society. In addition, inmates in the program are
prepared by representatives from both public and private sectors to make use
of those resources upon release.”)); see also Correction Law § 73(3)
(“Programs [are] directed toward the rehabilitation and total reintegration
into the community of persons transferred to a[n] [RTF]”).

17.

Yet respondents fail to address the explicit exclusion of those convicted of
sex offenses from receiving RTF-related re-entry services per the DOCCS
Directive for Queensboro.

(See Exhibit E (“To be eligible for the

Queensboro Correctional Facility Reentry Services Program, an inmate: . . .
5. Must not have a conviction for a sex offense”) (emphasis added).)
18.

Instead, they disingenuously suggest that “it is undisputed that such
programs are offered at Queensboro,” without providing the material caveat
that Mr. Ortiz and others in his situation are by definition excluded from that
programming. (See Opp’n at ¶23.)

4
A198

158a
19.

Queensboro is a corrections facility that may provide RTF services to some
of its residents, but SARA-RTF inmates receive no “treatment,” and the
facility is not functioning as a “residence.” (See also Ortiz Aff. ¶¶4, 12, 16,
23.) Thus, it cannot be considered a suitable RTF placement for petitioner.
See C.L. § 73(3) & (10).

Confinement at the Faux RTF Violates Substantive Due Process
20.

Continuing Mr. Ortiz’s period of incarceration past the maximum expiration
date of his sentence (his “ME date”) in this environment does not comport
with substantive due process for all of the reasons already argued.
(See Mem. in Supp. of Pet. at 3-21.)

21.

Although Mr. Ortiz’s liberty interests are constrained, contrary to
respondents’ contention, (see Opp’n at ¶18), the liberty that he retains
cannot be unilaterally extinguished. See Williams v. Dep’t of Corr. & Cmty.
Supervision, 136 A.D.3d 147, 164 (1st Dep’t 2016) (those “subject to
SARA” have “conditional liberty” that is constrained by “special conditions
of parole”). See also Bearden v. Georgia, 461 U.S. 660, 672-73 (1983)
(to “deprive [a] probationer of his conditional freedom simply because,
through no fault of his own, he cannot pay [a] fine . . . would be contrary to
the fundamental fairness required by the Fourteenth Amendment”).

22.

Mr. Ortiz is entitled to exist in “condition[s] [] very different from that of
confinement in a prison.” Morrissey v. Brewer, 408 U.S. 471, 482 (1972);
see also Werner v. Wall, 836 F.3d 751, 767 (7th Cir. 2016) (Hamilton, C.J.,
dissenting in part) (citing Morrissey) (“even a parolee, whose liberty is
conditional and constrained, cannot have his parole revoked and his liberty
taken away without due process of law”).
5
A199

159a
23.

As it stands, respondents feel comfortable imposing special conditions of
imprisonment, which cannot be countenanced under substantive due process,
particularly when the only act of which Mr. Ortiz is now guilty is an act of
omission driven by circumstance—failure to find housing due to lack of
resources. (See Exhibit L (acknowledging Mr. Ortiz was only held because
he lacked SARA compliant housing)); see also Robinson v. California, 370
U.S. 660 (1962) (“Even one day in prison would be a cruel and unusual
punishment for the ‘crime’ of having a common cold”).

24.

Strict scrutiny applies to these deprivations, rather than the more relaxed
rational basis test or intermediate scrutiny, because Mr. Ortiz has completed
his term of incarceration. See also Williams v. Illinois, 399 U.S. 235, 241-42
(1970) (“once the State has defined the outer limits of incarceration
necessary to satisfy its penological interests and policies, it may not then
subject a certain class of convicted defendants to a period of imprisonment
beyond the statutory maximum solely by reason of their indigency”).

25.

In fact, as of the date of the hearing in this matter, petitioner will have
completed his entire term of incarceration and the maximum six month
period of enrollment at an RTF.

26.

Respondent recasts the question as one relating to the permissibility of
SARA restrictions in general, which is governed by the rational basis test.
(See Opp’n at ¶18.)

27.

The question here, however, is not whether SARA restrictions can be
imposed, but instead is whether those restrictions can be used to entirely
extinguish Mr. Ortiz’s liberty and keep him in prison.

6
A200

160a
28.

Simply put, it would be unconscionable to subject Mr. Ortiz—who is now
definitively on post-release supervision—to the same conditions as someone
who has just begun serving a term of incarceration.1

29.

Indeed, his fundamental liberty to associate with his family, now that he has
technically been “released” to the community under supervision, has also
been unduly restricted—more so than when he was actually in prison—
because DOCCS failed to address the issues surrounding his ability to see
his daughter for nearly the entire six months of his RTF confinement.
Doe v. Lima, 270 F. Supp. 3d 684, 702 (S.D.N.Y. 2017) (“strict scrutiny
[applies] to restrictions on liberty incident to post-prison supervisory
regimes, whether denominated as parole (as in New York State) or as
supervised release (as in the federal system)”).

1

An example from Wisconsin is strikingly similar to Mr. Ortiz’s situation:
For more than a year neither Werner nor anyone helping him could find lawful and suitable
housing for him. Werner was [therefore] kept in custody pursuant to [a] policy that the defendants
adopted and enforced. That policy was unconstitutional and contrary to state law even when it
was issued in 2002.

Werner v. Wall, 836 F.3d 751, 766 (7th Cir. 2016) (Hamilton, C.J., dissenting in part). The majority of the Seventh
Circuit panel addressing Mr. Werner’s claims appeared to agree with Judge Hamilton that constitutional principles
were implicated—and likely violated. See id. at 761 (majority) (“we think that Kingsley, McNeil, and Baker suggest
that substantive due process principles are implicated here”) (citing Kingsley v. Hendrickson, 135 S. Ct. 2466, 2473
(2015) (analyzing the greater due process protections applicable to pretrial detainees); McNeil v. Dir., Patuxent Inst.,
407 U.S. 245, 249 (1972) (“A confinement that is in fact indeterminate cannot rest on procedures designed to
authorize a brief period of observation.”); Baker v. McCollan, 443 U.S. 137, 145 (1979) (but a “detention of three
days over a New Year’s weekend does not and could not amount to such a deprivation”)). Nevertheless, the
majority opted to extend qualified immunity to the defendants on the basis that the precise contours of the
constitutional claim were not clearly established, thus avoiding the un-briefed issue of exactly how Mr. Werner’s
substantive due process rights were violated. See id. at 759-61 (majority).

7
A201

161a
DOCCS’ Prolonged Delay in Addressing Visitation Issues
30.

The records provided as part of respondents’ opposition to this petition
document the arbitrary restriction of Mr. Ortiz’s family visitation.
Queensboro “RTF” is supposed to assist with “family and community
reintegration,” but Mr. Ortiz was kept from speaking with and seeing his
daughter for almost his entire period of confinement (March to August).

31.

Indeed, once he was sent to the RTF, and conditions of parole were imposed
despite his continued incarceration, Mr. Ortiz was told that he had to cease
communicating with his daughter entirely. (See Opp’n, Ex. A [Chronos]
(entry dated Mar. 15, 2018).)

32.

He sought assistance with the issue at that time, and many times thereafter,
but has only recently begun to see any progress. (Id., Ex. A (entries dated
May 11, 2018, May 25, 2018, June 12, 2018, July 6, 2018, and July 20, 2018
(at the end of July, parole confirmed that his daughter wants to see him));
Ortiz Aff. ¶10.)

33.

Respondents claim that they are arranging for Mr. Ortiz to be able to visit
with his daughter, (Opp’n at ¶19), but in reality they have been dragging
their feet since March. It was not until a week ago, August 25, 2018, that
petitioner was able to visit with her. (Ortiz Aff. at ¶¶9-11.)

34.

Thus, his punishment is worse at the “RTF” than when he was in traditional
“prison” where he could at least freely exercise his fundamental right to
associate with his daughter.

8
A202

162a
DOCCS’ Perfunctory Assistance With Finding Compliant Housing
35.

Respondent claims that Mr. Ortiz’s continued confinement at the RTF is not
a punishment (Opp’n at ¶20 (“Petitioner is not being punished”))—but the
homelessness penalty being exacted by the State cannot seriously be
considered anything else. See Sample v. Diecks, 885 F.2d 1099, 1108 (3d
Cir. 1989) (“[C]onfinement in a prison pursuant to a conviction but beyond
the term of a sentence seems . . . quintessentially punitive”).

36.

Part of that penalty is the perpetuation of his situation. So long as Mr. Ortiz
is living behind bars, without the ability to research potential living
situations, visit apartments, speak with managers and leasing agents, or
become gainfully employed, then there is no way he can ever secure SARAcompliant housing.

37.

DOCCS claims to be “diligently assisting” him to find suitable housing, but
their own records render their diligence suspect.

38.

As part of an ongoing class action litigation focused on DOCCS’ treatment
of the many individuals in this predicament, DOCCS has produced
snapshots of the RTF population that show the “efforts” expended by reentry to locate housing for those confined at the RTFs. (See Exhibit K.)

39.

What these snapshots reveal is that DOCCS’ “diligent assistance” consists of
doing a task they should have done already: to prepare for the release of
individuals convicted of sex offenses, DOCCS should already know which
temporary locations, particularly shelters and hotels, are SARA-complaint
and affordable—and which are not.

9
A203

163a
40.

Unfortunately, the snapshots show that DOCCS a) does not know that
information and b) is only now, and very slowly, accumulating that
necessary knowledge at the expense of all the SARA-RTF inmates.

41.

Thus, Ms. Hernandez’s statement that she and her staff “have investigated at
least 26 locations where we might find housing for Petitioner,” (Affidavit of
Christina H ernandez, MSW (“H ernandez Aff.”) at ¶12), to “assist[] him in
attempting to locate housing” that is SARA-compliant, (id. at ¶2), is
misleading at best.

42.

The vast majority of the “locations” that she has “investigated” are hotels—
and they are the same hotels she and her staff investigate in an
excruciatingly slow and piecemeal fashion for a large group of inmates.

43.

It appears that DOCCS randomly identifies one or two hotels every few
weeks and then determines whether a particular hotel is near a school. On
the rare occasion when a hotel is not near a school, DOCCS determines
whether it would be cost-prohibitive to house those subject to SARA there.

44.

These results are written into multiple SARA-RTF inmates’ logs.

45.

Ms. H ernandez’s affidavit describes hotels that Re-Entry Manager Stacey
Dorsey investigated “for potential immediate placement of Petitioner,” (id.
at ¶5), and nearly every example provided is the same hotel listed on
multiple other SARA-RTF inmates snapshot reports for that time period.
(Compare, e.g., Opp’n, Ex. A (entry dated July 23, 2018) (the Blue Moon
Hotel is “non-compliant”), with Exhibit K at 005797 (the “07132018 Active
RTF Spreadsheet”) (showing the same excuse for at least 10 individuals
detained in RTFs).

10
A204

164a
46.

Based on these records, one must conclude that DOCCS is looking up the
address for one hotel, finding out that the hotel is non-compliant, and
logging that result into various prisoners’ logs.

47.

Looking at the reverse potential outcome exemplifies why this approach is
only an illusion of assistance: would DOCCS be able to release all of the
SARA-RTF inmates that same day into the same location? Certainly not.

48.

But it is difficult to understand why DOCCS even needs to check the
addresses of hotels in the New York City area in the first place, given that
most of these hotels have been in existence for quite some time 2 and the
scarcity of SARA-compliant housing has been well-documented and
recognized by DOCCS since at least 2012.3

49.

It is not as though public schools and playgrounds are changing locations or
regularly closing down on a weekly basis.4

50.

Nor should the expensive nature of some of these hotels, for example the
Omni Berkshire, come as a surprise. (Compare Opp’n, Ex. A (entry dated
Mar. 14, 2018), with Exhibit K at 005530-32 (providing the same note that
the rates are too high at the Omni for at least 12 inmates’ logs).)5

2
For example, the “award-winning NYC boutique hotel” known as the Blue Moon Hotel has been functioning in
the same location for at least a decade.
See Blue Moon H otel (Introduction), available at
https://www.bluemoonboutiquehotel.com/en-us/introduction.

“Clusters of sex offenders living in boarding houses like Horizon Hope, cheap motels and homeless shelters have
become common in the decade since New York implemented statewide residency restrictions for many sex
offenders under parole supervision.” Jie Jenny Zou, Housing the Unwanted, THE NEW YORK WORLD (Mar. 19,
2015), available at http://jiejennyzou.com/wp-content/uploads/2012/05/nyw_housing_the_unwanted.pdf.

3

Generally speaking, the NYC Department of Education closes schools down at scheduled periods of time, such as
at the end of the school year. See, e.g., DOE Announces Plan To Close 14 Public Schools (Dec. 18, 2017), available
at https://newyork.cbslocal.com/2017/12/18/bronx-stabbing-school-closing/.

4

The average nightly rate of the Omni Berkshire is “$250 - $771” according to one popular travel website.
TripAdvisor, available at https://www.tripadvisor.com/Hotel_Review-g60763-d113300-Reviews-Omni_Berkshire_
Place-New_York_City_New_York.html.
5

11
A205

165a
51.

The reasonable conclusion to draw from this information is that respondents,
despite being aware of the housing crisis for years, have never bothered to
find effective placements for those on SARA. Ms. H ernandez admits as
much when she discusses four meetings she had in October and November
of 2017 surrounding the lack of suitable housing. (H ernandez Aff. at ¶3.)
But whether DOCCS finally started looking for solutions (a year ago) is
irrelevant: Mr. Ortiz is entitled to release now.

52.

It is possible to draw another conclusion from the evidence: given that
DOCCS might have to pay for such a hotel placement for the duration of an
individual’s post-release supervision, or force them back into an
overcrowded RTF, the allegedly “diligent” hotel search may simply be a
strategy to “look busy” until space opens up at a SARA-compliant shelter.

53.

In either case, calling a random smattering of hotels, many of which may not
even be traditional “shelter” hotels,6 is not an appropriate way to secure
housing—particularly for people that have served their sentences and are
only being detained because they lack resources to find specialized housing.

54.

In fact, when Mr. Ortiz attempted one year ago to do the exact same thing
that DOCCS now claims is suitable assistance—check the availability at a
local hotel—he was informed that only private residences would be
considered. (See Opp’n, Ex. A (entry dated Sept. 15, 2017).)

6
The practice of housing New York City’s homeless citizenry in hotels is nothing new. See, e.g., Homeless Put
Into Hotels For Tourists, N.Y. TIMES (Aug. 28, 1991), available at https://www.nytimes.com/1991/08/28/nyregion/
homeless-put-into-hotels-for-tourists.html. DOCCS should be well-aware of the a) cost of these hotels, b) location
of these hotels, and c) ultimate suitability of such hotels based on cost and location.

12
A206

166a
55.

In any event, putting aside the absurdity of this piecemeal check-and-log
process, it can hardly be called diligent to do a single search on behalf of
multiple individuals. And it certainly cannot be considered individualized
and affirmative. See Gonzalez v. Annucci, 149 A.D.3d 256, 264 (3d Dep’t
2017) (“passive approach of leaving the primary obligation to locate housing
to an individual confined in a medium security prison facility . . ., without
access to information or communication resources beyond that afforded to
other prison inmates, falls far short of the spirit and purpose of the
legislative obligation imposed upon DOCCS to assist in this process”).

56.

A single hotel address lookup, even once or twice a week, applied to a large
group of people that are being held in ongoing confinement despite the
expiration of their sentences cannot be considered genuine assistance.

57.

As in Gonzalez, “[t]here is nothing in the record to indicate that officials
provided petitioner with any manner of aid, such as other suggestions,
referrals, information or any other form of affirmative assistance[.]” Id.

58.

And, although Ms. H ernandez is only concerned with the time period
beginning in February 2018, Mr. Ortiz has been held since his earned
conditional release date of September 28, 2016.

59.

A review of the Chrono Report entries reveals that the near-total assistance
provided to Mr. Ortiz during that time (September 2016 until March 2018)
consisted of sending Stacey Dorsey emails, often with months passing
between check-ins. Parole would inquire as to whether any placements had
become available, and Ms. Dorsey would invariably respond in the same
negative fashion. (See Opp’n, Ex. A (entries for Feb. 2, 2017 & Feb. 7,
2017; May 22, 2017; July 11, 2017; Sept. 1, 2017; Dec. 15, 2017; Feb. 23,
2018 (“Reentry does not have resources that meet requested criteria”)).)
13
A207

167a
60.

These Chrono Reports demonstrate that no serious effort was made to secure
housing for Mr. Ortiz since he was denied his conditional release. Rather,
DOCCS has invented a new way to deny conditional release to those
convicted of sex offenses: a penalty for lacking the resources to secure
SARA-compliant housing. 7

61.

Thus, DOCCS has abrogated its responsibility to assist on an individual
level and is merely putting on a façade of assistance.

62.

Mr. Ortiz would gladly live in SARA-compliant housing if it existed, and
there has been no showing that he willfully refuses to pay for such housing
or to seek it out. (See Ortiz Aff. ¶¶25-26); cf. Tate v. Short, 401 U.S. 395,
400 (1971) (“We emphasize that our holding today does not suggest any
constitutional infirmity in imprisonment of a defendant with the means to
pay a fine who refuses or neglects to do so.”).

63.

If respondents cannot find housing for Mr. Ortiz after nearly two years of
“diligence,” then the task is surely impossible—and Mr. Ortiz is being
detained without hope of release.

64.

In sum, it is cruel and unusual for respondents to punish him for his lack of
resources. See, e.g., State v. Adams, 91 So. 3d 724, 738-39 (Ala. Crim. App.
2010) (Alabama appellate court agreed that requiring a “a sex offender [to]
provide an ‘actual address at which he or she will reside’” prior to his
release “punishes the defendant solely for his status of being homeless”).

Notably, DOCCS does not otherwise indicate that parole will be revoked if someone becomes homeless.
See Parole H andbook (“The Division may assist you in locating programs that may be available to provide a
temporary place to live if you become homeless”), available at http://www.doccs.ny.gov/Parole_Handbook.html.
Nor does SORA create any penalty for not having a residence, only for failing to keep the local authorities apprised
of an address change. See Corr. Law § 168-t (“Any such failure to register or verify may also be the basis for
revocation of parole pursuant to section two hundred fifty-nine-i of the executive law”).
7

14
A208

168a
DOCCS’ Failure to Credit Mr. Ortiz for the Time Between His CR and ME Dates
65.

Adding insult to the injury Mr. Ortiz has suffered, DOCCS justifies
extending his period of PRS from 2021 to 2023 even though he has been
held in prison conditions these past two years.

66.

Deputy Commissioner of Community Supervision, Ana Enright, explains
that Mr. Ortiz was held past his conditional release date because he did not
have suitable housing. (See Exhibit J (dated Aug. 13, 2018).)

67.

She then asserts that, because he could not be “admitted” to an RTF until the
expiration of his sentence, his PRS term did not begin until that time. (Id.)

68.

Thus, from DOCCS’ perspective, the 17 months of “good time” that Mr.
Ortiz earned are simply erased as a result of his indigence and bad luck.

69.

Tellingly, the Chrono Reports again conflict with DOCCS’ assertions.

70.

Starting as of October 26, 2016, Mr. Ortiz was catalogued as being “in RTF
status” with “no viable residence proposed.” (See Opp’n, Ex. A (entry dated
Oct. 26, 2016).)

This makes sense, given that the statute specifically

authorizes holding someone at an RTF (though only for six months) when
they are about to be “conditionally released”—which is the only way
DOCCS could continue to hold Mr. Ortiz despite his earned good time.
(See Pet., Ex. A); see also Penal Law § 70.45(3); Correction Law § 73(1).
71.

Indeed, that is why he was assigned parole officers who would contact
Stacey Dorsey once he reached and passed his C.R. date.

72.

Of course, Ms. Dorsey inevitably responded to any housing inquiry that no
“SARA compliant beds” were available.”

(Opp’n, Ex. A (entries dated

Feb. 2, 2017 (by P.O. S. Hamme) & Feb. 7, 2017 (by S. Dorsey).)
15
A209

169a
73.

Nevertheless, it defies logic to categorize Mr. Ortiz as “in RTF status” as of
his conditional release date, and have parole officers searching for suitable
housing, only to then claim that Mr. Ortiz began his post-release supervision
in March 2018 at the expiration of his determinate sentence.

74.

It is unconscionable, and certainly an additional cruel and unusual
punishment, to fail to account for the additional 17 months he spent
in prison (October 2016 through February 2018) because DOCCS failed to
assist him in finding housing.

Six-Months After His Maximum Expiration Date is Long Enough
75.

As respondent admits, Mr. Ortiz reaches his six month anniversary of RTF
confinement at the beginning of September. (Opp’n at ¶13.) Therefore, at
that time, DOCCS must either release him or use the RTF as a residence.

76.

This result is not contrary to the Second Department’s recent decision, aptly
noted by respondents, addressing ongoing “placement” at an RTF.

77.

In People ex rel. McCurdy v. Warden, Westchester Cty. Corr. Facility, the
court “constru[ed] the relevant statutes together” and determined that
Correction Law § 73(10) and Penal Law § 70.45(3) are not in conflict.
McCurdy, 2018 N.Y. Slip. Op. 05777, No. 2016-01838, 2018 WL 3862986,
at *2 (2d Dep’t Aug. 15, 2018).

78.

The panel explained that, “[b]y its terms, Penal Law § 70.45(3) permits
DOCCS to require an offender subject to a term of postrelease supervision to
spend the first six months of his or her postrelease supervision in residential
treatment facility housing as a transitional period prior to re-entry into the
community.” Id. (emphasis added).

16
A210

170a
79.

The court also held that, per Corr. L. § 73(10), “DOCCS has authority to
temporarily place a level three sex offender who has already completed more
than six months of his or her postrelease supervision . . . into residential
treatment facility housing in the event such offender is unable to locate
SARA-compliant community housing.” Id. (emphasis added).

80.

But the court, which took pains to use “familiar principles of statutory
construction,” id. at *1 (citation omitted), was entirely silent on the
difference between “participation in the programs of a[n] [RTF],” authorized
by P.L. § 70.45(3), and using an RTF as a “residence” or “housing,” which
the panel found to be temporarily allowable for periods past the six month
mark.

C.L. § 73(10); McCurdy, 2018 WL 3862986, at *2 (“residential

treatment facility housing”) (emphasis added).
81.

If the plain meaning of the statute is afforded any weight, then it must mean
that there is a distinction between the period of time when DOCCS can place
someone on PRS in RTF programming (with related confinement), and the
period of time when the RTF may serve as a shelter or housing. Compare
C.L. § 73(1) (authorizing the transfer of “inmates” to RTFs where they must
be “in custody” and “under [] supervision” at all times), with C.L. § 73(10)
(authoring the use of an RTF as a “residence for persons” on community
supervision where they will be “subject to conditions of community
supervision” as imposed by DOCCS while they “reside in such a facility”).

82.

Mr. Ortiz has reached that latter point in time when, under New York’s
statutory scheme, he has become a person again, as opposed to an inmate.

83.

If the court does not order his immediate release into the community, then at
the very least he should be allowed to treat Q ueensboro as a residence—
albeit with a curfew, like other shelters—rather than a prison.
17
A211

171a
84.

Forcing individuals to potentially serve out their entire term of post-release
supervision behind bars and under constant supervision by corrections
officers, whether the facility is called an RTF or a prison, must be viewed as
an unreasonable restriction of these individuals’ liberty interests and as an
additional cruel and unusual punishment.

Conclusion
85.

Mr. Ortiz should be in the community serving his period of PRS, but
respondents have converted PRS into incarceration.

86.

Turning a 10-year determinate sentence with a 5-year period of post-release
supervision into a potentially 15-year term of incarceration does not comport
with substantive due process.

87.

Moreover, such a conversion of PRS into imprisonment on the basis of
economic status, or homelessness, is a cruel and unusual punishment.

88.

For both of these reasons, the Court should order Mr. Ortiz’s immediate
release, as his continued detention is constitutionally infirm.

89.

At minimum, the Court should direct respondents to treat the RTF as a
“residence,” or as “housing,” which is all that Correction Law § 73(10)
allows.

See McCurdy, 2018 WL 3862986, at *2 (“residential treatment

facility housing”).
90.

Mr. Ortiz should be free to come and go, to look for employment and
suitable housing, subject to a reasonable curfew, rather than DOCCS treating
him, as they have been, as an imprisoned inmate.

18
A212

172a

Dated:

New York, New York
August II , 2018

Respectfi4Zy subm

Will A. Page, Esq.
Of Counsel
Justine Luongo, Esq.
THE LEGAL AID SOCIETY
Criminal Appeals Bureau
199 Water Street
New York, New York 10038
Telephone No. (212) 577.3442
Attorneys for Petitioner

19
A213

173a
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF QUEENS
The People of the State of New York ex. rel.
ANGEL ORTIZ,
DIN 08-A-4974 & NYSID # 05394060J,
Petitioner,
- against -

AFFIDAVIT OF
ANGEL ORTIZ
S.P. No. 113-2018

DENNIS BRESLIN, Superintendent of Queensboro
Correctional Facility, and NEW YORK STATE
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION,

Justice Latella

Respondents.
STATE OF NEW YORK
COUNTY OF NEW YORK

ss.:

ANGEL ORTIZ, being duly sworn, does hereby state under penalty of perjury the
following to be true:
1.

I am the petitioner named in caption above, and my counsel filed this
petition for a writ of habeas corpus on my behalf. It is my desire to be
present at the hearing that will be held in this matter, particularly if the Court
wishes to hear directly about these events from me.

2.

I now verify the contents of the original petition, with a few minor
clarifications, and provide the additional details contained herein. I have
also provided my counsel with copies of letters and documents, which
I have received during my incarceration.

3.

As of the date of this affidavit, I have not been released into the community.
1
A242

174a
4.

Every day that passes since DOCCS held me past my conditional release
date has left me feeling more isolated and hopeless.

5.

Still, prior to the maximum expiration date of my sentence, I thought it could
not get any worse. I assumed that once my entire prison term expired
I would be released.

6.

Nothing could have prepared me for what happened once I “maxed out.”

7.

When I was transferred to Fishkill and told I would be placed on a “waitlist”
for the RTF there rather than being released, I was despondent.

8.

Then, after my counsel scheduled a legal call with me, I was suddenly
placed into RTF programming at Fishkill—the same day.

I was very

surprised, and I honestly thought that maybe the situation was going to
improve. But, three days later, I was transferred to Queensboro RTF.
9.

At Fishkill and, until very recently, at Queensboro, I have been unable to see
or call my daughter. This also surprised me: I have always been allowed to
speak and visit with her at the prisons that housed me over the last 10 years.

10.

I repeatedly asked the rehabilitation coordinators why I could not
communicate with her. Staff at the RTFs informed me that minors are not
allowed at RTFs without parole’s permission. But my parole officers all but
ignored my requests until very recently.

11.

On August 25, 2018, my daughter was finally allowed to visit me. It was the
first time that I could speak freely with her since my transfer to Queensboro.

12.

That is not, however, the only downside of the Queensboro prison. Not only
has my access to my daughter been severely restricted, but the RTF
environment is, in many ways, more dangerous than prison.
2
A243

175a
13.

It is very frightening, because we are housed in a designated area within the
general prison population, and the corrections officers have told me that
“they” know why “we” (the sex offenders) are here at Queensboro.

14.

It is also a very tense situation for my fellow RTF sex offender “residents”
because of the lack of programming, uncertainty of when or if we will ever
be released, and mix of our unit with the non-sex offender population.

15.

I have been threatened by gang-affiliated inmates because of my conviction
for a sex offense. Also, I have seen fights break out between the sex
offender residents, because tensions are high and many of us feel hopeless.

16.

While the guards are not generally armed when we are outside cleaning the
facility grounds, they are armed while we are on work release and under
their supervision. We are made to feel like we do not belong on the outside
of the prison walls. We are called “inmate” and treated like any other
prisoner. On a daily basis, someone asks me where I am “locked.”

17.

I have also not received any useful programming since DOCCS decided to
keep me in prison after my conditional release date.

18.

I have not received any additional sex offender therapy or aftercare, and I
have not been able to take part in substance abuse treatment.

19.

At Queensboro, I am part of a “work crew” and get to clean, sweep, or
unload boxes, but I do not get to search for housing or jobs.

20.

I do not get to learn any useful skills or prepare for re-entry. I am trained in
the culinary arts and have a lapsed commercial driver’s license, but those
areas of my skillset have not been explored to prepare me for finding a job.

3
A244

176a
21.

Once, when the group of us “sex offender RTF inmates” were complaining
about the lack of programs, the corrections officers and parole officers told
us that they would be providing us with one program, an ART (Aggression
Replacement Therapy) course that would meet every other week.

22.

They said that they had to provide something to us because of all the
litigation that is happening against DOCCS because of what they are doing
to us (keeping all of us past our CR and ME dates). But I completed ART
while I was serving my determinate sentence—in 2013.

23.

Being confined at Queensboro prison, aside from being dangerous, is
overwhelmingly disheartening.

24.

I know that I have made many mistakes in my life, but I thought that once I
served my time I would finally get to make amends, to move on with my
life, to try to be the father that my daughter needs in her life.

25.

I am truly sorry that I have no funds or outside resources that will allow me
to find SARA-compliant housing from inside this prison. If I was wealthy,
then I would gladly pay whatever I could to remain in housing that is
acceptable to DOCCS. Or, if I am released, I will do whatever it takes to get
a job and start paying for SARA-compliant housing.

26.

But I can never hope to find housing, or to pay for such housing, if I am
confined at Queensboro earning $10 a day.

27.

All I want to do is begin the process of reintegrating with the community
where I was born, where I have lived for most of my life, and where my
family lives. I have served my time, and I am nearly 50 years old.

28.

I hope that you will release me from prison to my mother and daughter, and
to what remains of my life.
4
A245

177a

Sworn to before me this

3Q_ day of August 2018
Petitioner

Will ~ ~
Attorney and Counselor at Law
State of New York
Notary Commission: 02PA6371484
Qualified in Kings County
Expiration: fib. 11P I 2'J ZI.-

5
A246

